<html>
<title> - S. 438, the IRRIGATE Act</title>
<body><pre>[Senate Hearing 114-14]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 114-14

                        S. 438, the IRRIGATE Act

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 4, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-556 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
   DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
                Anthony Walters, Minority Staff Director



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 4, 2015....................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Cantwell....................................    47
Statement of Senator Daines......................................     3
Statement of Senator Tester......................................     2

                               Witnesses

Cottenoir, Mitchel T., Tribal Water Engineer, Eastern Shoshone 
  and Northern Arapaho Tribes, Wind River Reservation............    24
    Prepared statement...........................................    25
Fennell, Anne-Marie, Director, Natural Resources And Environment, 
  U.S. Government Accountability Office..........................     8
    Prepared statement...........................................     9
Headdress, Sr., Hon. Charles, Councilman, Assiniboine and Sioux 
  Tribes, Fort Peck Reservation..................................    18
    Prepared statement...........................................    19
LaBonde Jr., Harry C., Director, Wyoming Water Development 
  Commission.....................................................    39
    Prepared statement...........................................    40
Washburn, Hon. Kevin, Assistant Secretary--Indian Affairs, 
  Department of the Interior.....................................     4
    Prepared statement...........................................     5

                                Appendix

Allen, Hon. Jim, Representative, House District 33, Fremont 
  County and the Wind River Indian Reservation, letter for the 
  record.........................................................    75
Chippewa Cree Tribe of the Rocky Boy's Reservation, prepared 
  statement......................................................    66
Colorado River Indian Tribes (CRIT), prepared statement..........    55
Confederated Tribes of the Colville Reservation, prepared 
  statement......................................................    63
Crowheart Bench Water User's Association (CBWUA) and the ``A'' 
  Canal Water User's Association (ACWUA), letter for the record..    76
Finley Hon. Vernon S., Tibal Council Chairman, Confederated 
  Salish and Kootenai Tribes of the Flathead Nation, prepared 
  statement......................................................    60
Frost, Hon. Clement J., Chairman, Southern Ute Indian Tribe, 
  prepared statement.............................................    67
Lewis, Tsosie, CEO, Navajo Agricultural Products Industry, 
  prepared statement.............................................    64
Navajo Housing Authority (NHA), prepared statement...............    68
Tammany, Fred, Chairman, Ray Canal Water Users Association, 
  letter for the record..........................................    75
Ute Indian Tribe of the Uintah and Ouray Reservation, prepared 
  statement......................................................    71

 
                        S. 438, the IRRIGATE Act

                              ----------                              


                        WEDNESDAY, MARCH 4, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order.
    Today, the Committee will examine S. 438, the Irrigation 
Rehabilitation and Renovation for Indian Tribal Governments and 
Their Economies Act or the IRRIGATE Act.
    Senator Tester and I introduced the IRRIGATE Act with 
bipartisan support, earlier this month. I want to thank him, 
along with Senator Daines, Senator Mike Enzi, Senator Orrin 
Hatch, and Senator Michael Bennet, for co-sponsoring this 
important piece of legislation.
    I also want to welcome my friends, Harry LaBonde, Director, 
Wyoming Water Development Commission. Thank you very much for 
being here. I welcome Mitch Cottenoir, the Tribal Water 
Engineer of the Eastern Shoshone and Northern Arapaho Tribes in 
Wyoming. Mr. Cottenoir has testified before this Committee on 
irrigation issues in the past. Both witnesses are very familiar 
with the challenges facing irrigation projects.
    In the late 1880s and early 1890s, the Department of 
Interior initiated irrigation projects across Indian 
reservations in the west. These irrigation projects were 
intended to be a central component for tribal economies. 
Construction of these projects ended sometime in the 1940s and 
many irrigation projects were never fully completed. In 2006, 
the Government Accountability Office found many of these 
projects were plagued by maintenance issues, structural 
deficiencies and insufficient funding for project operations.
    In recent years, the Committee has held two hearings on 
Indian irrigation projects, a field hearing in Wyoming in 2011 
and an oversight hearing in September 2014. Those hearings 
confirmed a serious backlog in deferred maintenance exists and 
continues to grow.
    Many ranchers and farmers, both Indian and non-Indian, 
still depend on the Bureau of Indian Affairs to deliver water 
for their needs. While the Bureau has indicated the current 
backlog costs exceed $567 million, some Indian tribes have 
estimated it may be even higher than that, much higher.
    Today, the Indian Irrigation Program is responsible for the 
oversight and administration of these projects that deliver 
water to over 25,000 users. One of these projects is on the 
Wind River Reservation in my home State of Wyoming.
    The photos before the dais are taken from various parts of 
the Wind River Irrigation Project. In the photos you see before 
you, there is a comparison of structures on the reservation. 
The left photo represents the ancient deteriorating 
infrastructure still in use on the reservation. The other photo 
represents the dramatic improvement that has occurred in the 
few areas where these systems are rehabilitated and adequately 
maintained.
    The next set of photos shows the basics of the irrigation 
system. On the left, you see the grating system put in place by 
the Bureau of Indian Affairs. You can also see the brush 
overgrown around the canal.
    On the right, you see that modest rehabilitation efforts 
can transform these structures. In this case, the tribes 
contributed with the State for that rehabilitation.
    This legislation would also facilitate more collaboration 
between the tribes and the States. Many other Indian irrigation 
projects are in the States of members who sit on this 
Committee, including Montana, Washington, Arizona, New Mexico 
and Idaho.
    Careful management of the water in Indian communities is 
essential if we are to ensure a reliable supply for the future. 
The IRRIGATE Act would bring the Indian irrigation projects 
into the 21st century.
    It would authorize $35 million each year beginning in 
fiscal year 2016 until fiscal year 2036 to begin addressing the 
deferred maintenance needs. The bill would also require a study 
on the operation of these projects. These projects continue to 
be a very important source of income and economic development 
for the surrounding communities.
    The Federal Government's promises to Indian country to 
build and maintain these projects needs to be fulfilled. This 
bill is a start in the right direction.
    Finally, I am disappointed that the Department of Interior 
did not submit their testimony until 11:15 a.m. this morning. I 
understand it was not necessarily the department delaying the 
testimony but rather the Office of Management and Budget.
    Regardless, I hope we don't see this happen again. These 
delays only serve to diminish the productivity of these 
important hearings.
    Vice Chairman Tester, would you like to make an opening 
statement?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I would and thank you, Mr. Chairman. I 
appreciate your holding this legislative hearing on the 
IRRIGATE Act.
    I also want to thank Councilman Headdress for being here 
today and making the trip from Fort Peck. We send our thoughts 
and good wishes to Chairman Stefani as he continues to heal and 
recover back in Montana.
    As Chairman Barrasso mentioned, irrigation systems are 
critical components on a number of reservations in Indian 
country. Unfortunately, what seems to be par for the course 
with a lot of tribal issues is we never have done a good job in 
ensuring the tribes have the resources they need to make these 
irrigation systems successful.
    This bill is a step in the right direction as it provides 
the mechanism to fund deferred maintenance on these irrigation 
projects that have built up over decades. This bill would fund 
maintenance for 17 of the biggest irrigation projects across 
Indian country.
    That is why I have joined the Chairman in sponsoring this 
bill. This bill was first included as a part of the authorized 
Rural Water Projects Completion Act in the last Congress. That 
bill had three components, all of which benefited Indian 
country.
    In addition to irrigation provisions, that legislation 
would have finally provided funds to complete construction of 
six authorized rural water projects. Some of these projects are 
located on or near reservations but like irrigation systems, 
these projects benefit both Indian and non-Indian stakeholders 
throughout their service areas.
    The Rural Water Projects bill would have also saved funding 
to pay for future tribal water settlements across the country. 
In each Congress, we are faced with a number of tribal water 
settlements that must be authorized. Instead of scrambling to 
find funds for each specific settlement, the Rural Water 
Projects bill would have created a dedicated funding stream 
similar to what has worked well in the past.
    Several of the recently enacted tribal water rights 
settlements have actually included rehabilitating irrigation 
systems as well. In my mind, it really makes sense to consider 
these water issues in a more comprehensive manner.
    I've also received letters from a number of tribes that 
support a larger package and who are interested in long term 
planning and funding for rural water projects and water 
settlements. I couldn't agree more.
    We cannot continue to authorize water settlements and water 
projects without a plan to fund them. Accordingly, I expect to 
reintroduce the Rural Water Projects bill in the next few 
weeks. I look forward to working with my colleagues on this 
Committee and others to address the broader needs of Indian 
country.
    For today, I am happy to hear from our witnesses about the 
importance of Indian irrigation systems in their communities 
and how we can work to improve those systems and address tribal 
water issues across the board.
    With that, Mr. Chairman, I appreciate your holding the 
hearing. Thank you.
    The Chairman. Thank you, Mr. Vice Chairman.
    Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. I want to give a warm welcome to Councilman 
Headdress. Welcome to Washington. You brought some of that 
Montana snow to the wrong place. We are going to send it back 
home, I think.
    Thinking about your reservation, it is the size of 
Delaware, 2 million acres, 2,000 square miles. With a Vice 
President who comes from Delaware, we have a councilman here 
who has a reservation that is nearly the size of Delaware. It 
kind of helps us understand the scope required in these water 
projects and the importance of them.
    I offer you a warm welcome from both Senator Tester and 
myself to Washington.
    The Chairman. Thank you, Senator Daines.
    We would now like to hear the testimony from our witnesses. 
Please try to keep your comments within five minutes.
    We will start with the Honorable Kevin Washburn, Assistant 
Secretary, Indian Affairs, Department of the Interior.

          STATEMENT OF HON. KEVIN WASHBURN, ASSISTANT 
         SECRETARY--INDIAN AFFAIRS, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Washburn. Thank you, Chairman, Vice Chairman and 
Senator.
    We are very happy to be here. I want to personally 
apologize about the lateness of our testimony. That is all on 
me. It is not OMB's fault. We have had a lot of hearings 
lately. In fact, the Secretary was testifying this morning at 
the Senator Appropriations Committee. It is hard for us to turn 
around testimony on time, we have so many hearings.
    I will take ownership of that and again, I apologize 
because I know your staff needs time to prepare and you need 
time to prepare.
    Thank you for your leadership on this issue. You and the 
Vice Chairman have had a laser-like focus on the importance of 
irrigation projects. I want to commend you for that. This issue 
would not be getting the attention it does if you hadn't kept 
it as focused.
    In the interest of time, I am largely going to stand on my 
written testimony but I want to raise two modest pieces of good 
news for you before I stop.
    First of all, I want to talk a little bit about the Land 
Buy Back Program. One piece of good news is the Cobell 
settlement which was negotiated by the Secretary of the 
Interior and the President and enacted by this Congress, this 
Committee had a big role in that, has made some forward 
progress.
    One of our problems with irrigation systems is we need to 
assess the owners of interest in agricultural land, the trust 
land. Many of those are in fractionated ownership and we often 
don't bill the people that have tiny little interests. We are 
now consolidating those interests and that will produce more 
accessible land and ultimately produce better recoveries, more 
recovery of the cost of irrigation projects. That is one piece 
of good news.
    The other piece of good news is the President's proposed 
budget which has a $1.5 million increase for irrigation O&M 
recommended to Congress. That is a roughly 12 or 13 percent 
increase over what we have in the current fiscal year.
    The President has exercised some leadership. I realize it 
is modest leadership in this regard because we have a lot of 
priorities, but I do want you to know we are trying to fund 
irrigation projects better.
    I thank you again for your leadership. I think I will stop 
there and take your questions whenever you are ready.
    [The prepared statement of Mr. Washburn follows:]

Prepared Statement of Hon. Kevin Washburn, Assistant Secretary--Indian 
                  Affairs, Department of the Interior
    Good afternoon Chairman Barrasso, Vice Chairman Tester, and members 
of the Committee. My name is Kevin Washburn and I am the Assistant 
Secretary for Indian Affairs at the Department of the Interior 
(Department). Thank you for inviting the Department to provide 
testimony on S. 438, the Irrigation Rehabilitation and Renovation for 
Indian Tribal Governments and Their Economies Act, a bill to provide 
for the repair, replacement, and maintenance of certain Indian 
irrigation projects. We appreciate the Committee's continued leadership 
on the daunting challenge the Department faces on addressing the 
deferred maintenance at the 17 Bureau of Indian Affairs' (BIA) 
Irrigation projects.
    Larry Roberts, Principal Deputy Assistant Secretary for Indian 
Affairs, for the Department, testified before this Committee last 
September and provided an overview of the Irrigation Projects in Indian 
Country, along with the BIA's Irrigation Program's accomplishments, 
Irrigation project condition assessments, and the deferred maintenance 
estimates for our 17 BIA Irrigation Projects. S. 438 seeks to address 
the deferred maintenance for the BIA's Irrigation Projects by 
identifying the eligible projects, establishing a priority for 
allocating $35 million per year to our BIA Irrigation projects for 
twenty-two years to carry out the maintenance, repair and replacement 
activities at the irrigation projects. S. 438 also provides for 
establishing programmatic goals and conducting a study aimed at 
improving program and project management, and performance of BIA 
irrigation projects with a report to be delivered to Congress within 2 
years. The Department supports the goals of working with tribes to 
address the maintenance of irrigation projects, and we look forward to 
working with you to address the best means of doing so given current 
budget constraints and the ability of irrigation projects to 
financially sustain themselves in the long run.
Background
    The Federal Government has been involved with Indian irrigation 
since the Colorado River Indian Irrigation Project was authorized in 
1867. In the early 1900s, Congress began authorizing funding for the 
construction of numerous Indian irrigation projects in the western 
United States. At that time, the Indian Irrigation Service led 
construction and early administration of the projects. In the late 
1930's and through the 1940s, as construction activities wrapped up on 
most projects, the Indian Irrigation Service ceased to exist and 
operation and maintenance (O&M) was transferred to the BIA, where it 
continues today. Many of these programs began at a time when Federal 
policies were far different. These irrigation projects remain very 
important today to the communities they serve. The BIA irrigation 
program is responsible for oversight and administration of fifteen 
revenue-generating Indian irrigation projects that provide service and 
water delivery to over 25,000 customers and 750,000 acres of land in 
Indian Country. The asset inventory and program responsibilities also 
include BIA-owned facilities at non-revenue generating irrigation 
projects, including the Navajo Indian Irrigation Project in New Mexico 
and Pyramid Lake Irrigation Project in northern Nevada. At these 
facilities the BIA does not assess O&M charges to irrigators; those 
charges are instead paid through appropriations or other means.
S. 438
    S. 438 would create an ``Indian Irrigation Fund'' (IIF) in the 
Department of the Treasury from the reclamation fund that was 
established in the Act of June 17, 1902 (32 Stat. 388, chapter 1093). 
The IIF would be funded at $35 million per year for 22 years for a 
total investment of $770 million. The legislation also caps the year to 
year spending at $35 million, but includes amounts of interest earned 
on investments from the IIF, if applicable, ``to carry out maintenance, 
repair and replacement activities'' for one or more of the eligible 
Indian irrigations projects identified in Sec. 202 of the S. 438.
    Section 104 requires the Secretary of the Interior to invest 
portions of the IFF that in the judgment of the Secretary are not 
required to meet current withdrawals. We recommend that the U.S. 
Treasury be designated as the federal agency responsible for investing 
IFF assets. We need to consult with the Department of the Treasury in 
more detail about these provisions.
    Section 201(b) of S. 438 describes funding ``to carry out 
maintenance, repair and replacement activities. . . .''. The term 
``maintenance'' is used and further states ``including any structures, 
facilities, equipment, or vehicles used in connection with the 
operation of those projects.'' We interpret this language as 
authorizing funding for the purchase of heavy equipment to address some 
deferred maintenance items, conduct routine and preventative 
maintenance activities, and also to purchase vehicles to support water 
delivery/operation activities. If this is the case we request adding 
the term ``personnel'' to the list of items in parenthesis in Section 
201(b) in order to clarify that hiring personnel is allowable in 
supporting O&M of the eligible projects.
    Section 202 of S. 438 defines the eligible projects for the IIF. 
The following is a list of the 17 Irrigation Projects that meet the 
criteria listed in Section 202.

  <bullet> Blackfeet Indian Irrigation Project (MT)
  <bullet> Colorado River Indian Irrigation Project (AZ/CA)
  <bullet> Crow Indian Irrigation Project (MT)
  <bullet> Duck Valley Indian Irrigation Project (NV)
  <bullet> Flathead Indian Irrigation Project (MT)
  <bullet> Fort Belknap Indian Irrigation Project (MT)
  <bullet> Fort Hall Indian Irrigation Project (ID)
  <bullet> Fort Peck Indian Irrigation Project (MT)
  <bullet> Navajo Indian Irrigation Project (NM)
  <bullet> Pine River Indian Irrigation Project (CO)
  <bullet> Pyramid Lake Indian Irrigation Project (NV)
  <bullet> San Carlos Indian Irrigation Project--Indian Works (AZ)
  <bullet> San Carlos Indian Irrigation Project--Joint Works (AZ)
  <bullet> Uintah Indian Irrigation Project (UT)
  <bullet> Walker River Indian Irrigation Project (NV)
  <bullet> Wapato Indian Irrigation Project (WA)
  <bullet> Wind River Indian Irrigation Project (WY)

    We recommend amending Section 202(2), as follows: ``are managed and 
operated by the Bureau of Indian Affairs (including projects managed, 
operated and/or maintained under contracts or compacts pursuant to the 
Indian Self-Determination and Education Assistance Act (25 U.S.C. 450 
et seq.) or other agreements with water users, water user groups and/or 
water user associations; and. . . .'' This is to ensure that the 
irrigation projects with 638 Contracts or Memorandum of Agreements 
(MOAs) with water user groups for O&M are not excluded.
    Section 203, which refers to ``requirements and condition,'' 
includes the Commissioner of Reclamation. Section 2 also describes the 
Secretary of the Interior as acting through the Commissioner or 
Reclamation. We recommend amending these references since the Bureau of 
Reclamation (Reclamation) is not involved in the operation and 
maintenance of the 17 eligible irrigation projects, nor is Reclamation 
involved in the allocation of resources among funds created within the 
Treasury. In Section 203(2)(E), regarding the funding prioritization 
criteria/methodology, the BIA has been collecting Condition Assessment 
data that BIA has used over the past decade. The BIA is initiating 
irrigation project Modernization Studies, which will provide additional 
and very valuable decisionmaking information on how BIA would best 
rehabilitate the existing irrigation project infrastructure. We 
recommend adding language to Section 203 that allow the results of the 
Modernization Studies to be incorporated into the criteria/methodology 
used in the implementation of S. 438.
    Section 205 requires Tribal Consultation and Water User Input. As 
this Committee is aware, Tribal consultation can be a lengthy process, 
and we understand our responsibility to consult with affected tribes 
and water users for these 17 irrigation projects and to provide 
adequate notice to make such consultation meaningful, usually 30 days. 
In order to facilitate the consultation required under this Section, we 
recommend the timeframe be changed from ``60 days'' to a ``not later 
than 120 days.''
    Section 206 of S. 438 provides a foundation for establishing which 
projects to prioritize and takes into consideration a reduced priority 
for those projects that have received funding by an ``act of Congress'' 
in the previous 15 year period. According to Section 206(b), the 
following projects have received funding under an ``Act of Congress 
that expressly identifies the Indian irrigation project or the Indian 
reservation of the project to address the deferred maintenance, repair, 
or replacement needs of the Indian irrigation project:

  <bullet> Crow Indian Irrigation Project, Crow Tribe Water Rights 
        Settlement Act of 2010, Public Law 111-291, signed into law on 
        December 8th, 2010.

  <bullet> Duck Valley Indian Irrigation Project, 2009 Omnibus Public 
        Land Management Act (H.R. 146, 111th Congress).

  <bullet> San Carlos Indian Irrigation Project--Indian Works, Arizona 
        Water Settlements Act, 118 STAT. 3478 PUBLIC LAW 108-451-DEC. 
        10, 2004.

  <bullet> Navajo Indian Irrigation Project, Public Law No. 87-483, 76 
        Stat. 96 (1962) (NIIP Act)--receives annual appropriations for 
        construction and maintenance activities.

    Section 206(b) provides the ``Priority'' as first based on an 
Indian irrigation project(s) serving more than one Indian tribe within 
``an Indian reservation.'' Based on this requirement the following 
irrigation project would receive funding priority under S. 438 over the 
first few years.

    Priority List:

    The only Irrigation Project that serves more than one Indian tribe 
within an Indian reservation is:

  <bullet> Wind River Indian Irrigation Project (Northern Arapahoe 
        Tribe, Eastern Shoshone Tribe, Wind River Reservation).

    The priorities identified next according to Sec. 203 ``programmatic 
goals'' to fulfill S. 438, and ``critical maintenance needs'' include 
the following Projects not listed in order of priorities:

  <bullet> Blackfeet Indian Irrigation Project
  <bullet> Colorado River Indian Irrigation Project
  <bullet> Flathead Indian Irrigation Project
  <bullet> Fort Belknap Indian Irrigation Project
  <bullet> Fort Hall Indian Irrigation Project
  <bullet> Fort Peck Indian Irrigation Project
  <bullet> Pine River Indian Irrigation Project
  <bullet> Pyramid Lake Indian Irrigation Project
  <bullet> San Carlos Indian Irrigation Project--Joint Works
  <bullet> Uintah Indian Irrigation Project
  <bullet> Walker River Indian Irrigation Project
  <bullet> Wapato Indian Irrigation Project

    Irrigation Projects that serve only 1 Indian tribe within an Indian 
reservation but have received funds in last 15 years (if S. 438 enacted 
this year):

  <bullet> Crow Indian Irrigation Project (received Settlement funds)
  <bullet> Duck Valley Indian Irrigation Project (received Settlement 
        funds)
  <bullet> San Carlos Indian Irrigation Project--Indian Works (received 
        Settlement funds)
  <bullet> Navajo Indian Irrigation Project (receives annual 
        appropriations)

    Last September, we testified before this Committee that the BIA 
operates its irrigation projects consistent with numerous laws, 
regulations and policy guidance and many projects have extensive and 
specific legislative histories. For example, specific statutory 
authorities require that BIA charge an assessment to both Indian and 
non-Indian customers for O&M costs. Most of the 15 revenue-generating 
projects receive little or no appropriated funds. Whenever possible and 
practical, BIA works to leverage cost-share opportunities with any 
other funding that is made available to tribes and water user 
organizations. Funding to maintain these systems must also compete for 
other pressing priorities in Indian Country.
    Historically, BIA has not charged sufficient Operation, Maintenance 
& Rehabilitation (OM&R) rates to allow for adequate project maintenance 
and replacement. Over time, this has resulted in less maintenance 
accomplished and a steady increase in deferred maintenance. This 
contributed to critical reviews by the Office of Inspector General in 
the 1990's and the Government Accountability Office in 2006. The 2013 
deferred maintenance estimate for BIA-owned irrigation facilities is 
approximately $600 million. Less clear is what should be the 
appropriate allocation of responsibility between the users and 
beneficiaries of these systems, particularly by non-tribal members, and 
the general taxpayer.
    Over the past 9 years we have increased our O&M rates an average of 
26 percent across all projects. We believe that rates are approaching 
levels to stem the growth of deferred maintenance, but the existing 
level of deferred maintenance is such that it may be difficult to 
address through increased O&M rates alone. To ensure the protection of 
the investments that would be provided by this Act, BIA will continue 
to evaluate the O&M rates assessed to irrigators while considering the 
local agricultural economies. The BIA irrigation projects are vital 
economic contributors to the local communities and regions where they 
are located. The BIA estimates that irrigated lands served by the 15 
BIA revenue generating irrigation projects add $490M in revenue and 
supports almost 10,000 jobs. This Administration supports investments 
in vital economic contributors and supports the goals of the bill, and 
we look forward to working with you to address the best means of doing 
so given current budget constraints and the ability of irrigation 
projects to financially sustain themselves in the long run.
    This concludes my prepared statement. I will be happy to answer any 
questions you may have.

    The Chairman. Thank you very much, Secretary Washburn.
    Next, we have Ms. Anne-Marie Fennell, Director, Natural 
Resources and Environment, U.S. Government Accountability 
Office, Washington, D.C.

 STATEMENT OF ANNE-MARIE FENNELL, DIRECTOR, NATURAL RESOURCES 
               AND ENVIRONMENT, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Ms. Fennell. Chairman Barrasso, Vice Chairman Tester and 
members of the Committee, I am pleased to be here today to 
participate in your hearing on S. 438, a bill to provide for 
the repair, replacement and maintenance of certain Indian 
irrigation Projects.
    In February 2006, we reported on 16 irrigation projects 
where water users were charged for project operations and 
maintenance by BIA. These projects, some of which date back to 
the late 1880s, include water storage facilities and delivery 
structures for agricultural purposes, particularly critical in 
light of water scarcity out west, my testimony today will 
summarize the findings of our February 2006 report, along with 
updates and the status of the three recommendations we made in 
the report. Specifically, I will discuss BIA's estimated 
deferred maintenance costs for the irrigation projects, 
shortcomings we identified in BIA's management of its projects 
and issues we identified that needed to be addressed to 
determine the long term direction of BIA's program.
    In our 2006 report, we found that BIA had estimated the 
cost for deferred maintenance at the 16 irrigation projects at 
about $850 million for fiscal year 2005. To further refine its 
cost estimate, BIA planned to hire engineering and irrigation 
experts to periodically conduct thorough condition assessments 
to identify deferred maintenance needs and costs. The 
irrigation projects included in the agency's estimate have 
changed somewhat since our report. The most recent estimate for 
fiscal year 2014 was reported just under $570 million.
    In our report, we found BIA's management of some of its 
irrigation projects had serious shortcomings that undermined 
effective decision-making about project operations and 
maintenance. Specifically, under BIA's organizational 
structure, in many cases, officials with authority to oversee 
project manager decision-making lacked the expertise needed to 
do so effectively. While the staff who had the expertise, 
lacked the necessary authority to oversee project manager 
decisions.
    We also found BIA did not consistently provide information 
and opportunities for stakeholders to participate in setting 
project priorities. We made two recommendations to address 
these management shortcomings, which BIA subsequently 
implemented.
    In our report, we found the long term direction of BIA's 
irrigation program depended on the resolution of several larger 
issues. Of most importance, BIA did not know to what extent its 
irrigation projects were capable of financially sustaining 
themselves which hindered the agency's ability to address 
longstanding concerns regarding inadequate funding.
    BIA also did not have a plan for how it would obtain 
funding to fix the deferred maintenance items, a significant 
challenge in times of tight budgets.
    Given that BIA must balance irrigation management with many 
other missions, we reported that it may be beneficial to 
consider whether others such as tribes or water users could 
better manage some of these projects.
    We recommended in our 2006 report that BIA conduct studies 
to determine how much it would cost to financially sustain each 
project and the extent to which water users have the ability to 
pay these costs. We were later informed that while the 
department agreed on the value of these studies, it did not 
have sufficient funds to conduct them.
    In conclusion, BIA irrigation projects continue to face 
hundreds of millions of dollars of deferred maintenance needs. 
Senate bill S. 438, if enacted, could help address these needs 
and potentially some of the other larger issues that we 
reported on by establishing an Indian Irrigation Fund.
    Chairman Barrasso, Vice Chairman Tester and members of the 
Committee, this completes my prepared statement. I am happy to 
respond to questions.
    [The prepared statement of Ms. Fennell follows:]

 Prepared Statement of Anne-Marie Fennell, Director, Natural Resources 
         And Environment, U.S. Government Accountability Office

    INDIAN IRRIGATION PROJECTS--Deferred Maintenance and Financial 
                Sustainability Issues Remain Unresolved
                         why gao did this study
    Over 100 irrigation projects and systems can be found on Indian 
reservations primarily across the western United States. The scarcity 
of water in much of the western United States makes irrigation critical 
to agricultural activities. In February 2006, GAO reported on 16 
irrigation projects where BIA charged water users for the projects' 
operation and maintenance (GAO-06-314). These projects, which were 
generally constructed in the late 1800s and early 1900s, included water 
storage facilities and delivery structures for agricultural purposes.
    This testimony is based on GAO's February 2006 report and updated 
information on BIA's fiscal year 2014 estimate of deferred maintenance 
and actions BIA has taken to address GAO's three recommendations. The 
testimony focuses on (1) BIA's estimated deferred maintenance cost for 
its irrigation projects, (2) shortcomings that GAO identified in BIA's 
management of its irrigation projects, and (3) issues GAO identified 
that needed to be addressed to determine the long-term direction of 
BIA's irrigation program.
    GAO is not making any new recommendations in this testimony.
                             what gao found
    The Department of the Interior's Bureau of Indian Affairs (BIA) 
estimated the cost for deferred maintenance for the 16 irrigation 
projects covered in GAO's February 2006 report at about $850 million 
for fiscal year 2005. To further refine the estimate, BIA planned to 
hire engineering and irrigation experts to conduct thorough condition 
assessments of the irrigation projects to correctly identify deferred 
maintenance needs and costs. While the irrigation projects included in 
the estimate have changed somewhat in the 9 years since GAO's report, 
BIA's fiscal year 2014 cost estimate for deferred maintenance for its 
irrigation projects is about $570 million.
    In its February 2006 report, GAO found BIA's management of some of 
its irrigation projects had serious shortcomings that undermined 
effective decisionmaking about project operations and maintenance. 
First, under BIA's organizational structure, officials with the 
authority to oversee irrigation project managers generally lacked the 
technical expertise needed to do so effectively, while the staff that 
had the expertise lacked the necessary authority to oversee project 
managers' decisionmaking. Second, BIA had not consistently provided 
project stakeholders, such as water users, with the necessary 
information or opportunities to participate in project decisionmaking, 
contrary to federal regulations that required BIA to consult with 
project stakeholders in setting project priorities. BIA has implemented 
GAO's two recommendations related to these management shortcomings.
    In its February 2006 report, GAO found that the long-term direction 
of BIA's irrigation program depended on the resolution of several 
larger issues.

  <bullet> Financial sustainability. BIA did not know to what extent 
        its irrigation projects were capable of financially sustaining 
        themselves, hindering its ability to address long-standing 
        concerns regarding inadequate funding.

  <bullet> Funding for deferred maintenance. BIA did not have a plan 
        for how to obtain funding to fix deferred maintenance items--a 
        significant challenge in times of tight budgets and competing 
        priorities.

  <bullet> Alternative project managers. Given BIA's many 
        responsibilities in support of Indian communities, it might be 
        more appropriate for other entities, such as tribes or water 
        users, to manage some or all of the irrigation projects.

    To obtain information on the long-term financial sustainability of 
each of the projects, GAO recommended that BIA conduct studies to 
determine how much it would cost to financially sustain each project 
and the extent to which water users on each project have the ability to 
pay these costs. Subsequently, in June 2008, the Department of the 
Interior stated in a memorandum that it did not have sufficient funding 
to perform these studies--and did not expect to have such funding in 
the foreseeable future. Since GAO's February 2006 report, BIA 
irrigation projects continue to face hundreds of millions of dollars of 
deferred maintenance needs, and financial sustainability issues also 
remain unresolved.

    Chairman Barrasso, Vice Chairman Tester, and Members of the 
Committee:
    I am pleased to be here today to participate in your hearing on S. 
438--a bill to provide for the repair, replacement, and maintenance of 
certain Indian irrigation projects. There are over 100 irrigation 
projects and systems on Indian reservations primarily across the 
western United States. As you know, the scarcity of water in much of 
the western United States makes irrigation critical to the continued 
success of agricultural activities. In February 2006, we reported on 16 
Indian irrigation projects where water users were charged for project 
operations and maintenance by the Department of the Interior's 
(Interior) Bureau of Indian Affairs (BIA), which is responsible for 
providing social and economic services to Indians as well as managing 
land and natural resources held in trust by the United States for 
Indians. \1\
---------------------------------------------------------------------------
    \1\ GAO, Indian Irrigation Projects: Numerous Issues Need to Be 
Addressed to Improve Project Management and Financial Sustainability, 
GAO-06-314 (Washington, D.C.: Feb. 24, 2006).
---------------------------------------------------------------------------
    Generally initiated in the late 1800s and early 1900s by Interior 
as part of the Federal Government's Indian assimilation policy, BIA's 
irrigation program was designed to foster agricultural opportunities 
and provide economic benefits to Indian communities. The 16 irrigation 
projects include water storage facilities and delivery structures for 
agricultural purposes. Over time, non-Indians began buying or leasing 
the land served by the projects for agricultural purposes, and project 
stakeholders evolved from Indian water users and the tribes within the 
reservations to include non-Indian water users as well. Many of the 
water users today are non-Indian.
    Reports by Interior's Inspector General on BIA's irrigation 
projects have documented that the annual operations and maintenance 
fees BIA has charged water users have historically been set too low to 
cover the full cost of running the projects. \2\ In addition, problems 
have been reported with collecting the fees that have been assessed. 
Because of insufficient funding, project maintenance has been 
consistently postponed, resulting in an extensive and costly list of 
deferred maintenance items. This deferred maintenance ranges from 
repairing or replacing dilapidated irrigation structures to clearing 
weeds from irrigation ditches. In addition to the deferred maintenance, 
water users had expressed concern that BIA had been unresponsive in 
addressing the projects' ongoing operations and maintenance needs.
---------------------------------------------------------------------------
    \2\ Department of the Interior, Office of the Inspector General, 
Indian Irrigation Projects, Bureau of Indian Affairs, 96-I-641 
(Washington D.C.: March 1996); Department of the Interior, Office of 
the Inspector General, Operations and Maintenance Assessments of Indian 
Irrigation Projects, Bureau of Indian Affairs, W-IA-BIA-12-86 
(Washington D.C.: February 1988).
---------------------------------------------------------------------------
    My testimony today will summarize the findings of our February 2006 
report, along with some recent updates. Specifically, I will discuss 
(1) BIA's estimated deferred maintenance costs for its irrigation 
projects; (2) shortcomings that we identified in BIA's management of 
its irrigation projects; and (3) issues we identified that needed to be 
addressed to determine the long-term direction of BIA's irrigation 
program. In addition, I will provide information on actions, where 
applicable, that BIA has taken to address the three recommendations in 
our February 2006 report.
    For our February 2006 report, we collected documentation from BIA 
headquarters irrigation officials on the 16 irrigation projects, and we 
visited and collected information from each of BIA's four regional 
offices that oversee the 16 irrigation projects. We also visited 9 of 
the 16 projects, where we collected project-specific information from 
BIA officials and project stakeholders. \3\ To examine estimated 
deferred maintenance costs, we reviewed BIA's lists of deferred 
maintenance items and cost estimates, as well as the methodology BIA 
used to develop these lists and estimates. To determine whether 
management shortcomings existed, we reviewed relevant federal 
regulations and agency guidance and we analyzed BIA-wide and project-
specific management protocols and systems for the 9 projects we 
visited. Finally, to determine any issues that needed to be addressed 
to determine the long-term direction of the projects, we reviewed prior 
studies on BIA's irrigation program, and we discussed the long-term 
direction of the program with BIA irrigation officials and project 
stakeholders. A detailed description of our scope and methodology is 
presented in appendix I of the February 2006 report.
---------------------------------------------------------------------------
    \3\ We selected these projects based on a combination of factors 
aimed at maximizing our total coverage (over 50 percent of the 
projects), visiting at least one project in each of the regions where 
irrigation projects are located, visiting the project with the highest 
deferred maintenance cost estimate in each region using BIA's fiscal 
year 2004 data, and visiting what BIA considered to be the three best 
projects and the five worst projects. Specifically, we visited: (1) the 
Blackfeet Irrigation Project, (2) the Colorado River Irrigation 
Project, (3) the Crow Irrigation Project, (4) the Fort Belknap 
Irrigation Project, (5) the Pine River Irrigation Project, (6) the San 
Carlos Indian Works Irrigation Project, (7) the San Carlos Joint Works 
Irrigation Project, (8) the Wapato Irrigation Project, and (9) the Wind 
River Irrigation Project.
---------------------------------------------------------------------------
    For comparison purposes and to show changes that BIA has made to 
its estimate of deferred maintenance costs since our February 2006 
report, we collected the most recent estimate of deferred maintenance 
costs from BIA--data for fiscal year 2014 as of September 30, 2014. We 
did not assess the reliability of the fiscal year 2014 estimate. We 
also present information on the status of the three recommendations 
from our report. The report upon which this testimony statement is 
based was conducted in accordance with generally accepted government 
auditing standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained for our report 
provided a reasonable basis for our findings and conclusions based on 
our audit objectives.
Background
    BIA's irrigation program was initiated in the late 1800s, as part 
of the Federal Government's Indian assimilation policy, and it was 
originally designed to provide economic development opportunities for 
Indians through agriculture. The Act of July 4, 1884, provided the 
Secretary of the Interior $50,000 for the general development of 
irrigation on Indian lands. \4\ Over the years, Congress continued to 
pass additional legislation authorizing and funding irrigation 
facilities on Indian lands.
---------------------------------------------------------------------------
    \4\ Act of July 4, 1884, 23 Stat. 76, 94 (1884).
---------------------------------------------------------------------------
    BIA's irrigation program includes over 100 ``irrigation systems'' 
and ``irrigation projects'' that irrigate over 750,000 acres primarily 
across the West. BIA's irrigation systems are nonrevenue-generating 
facilities that are primarily used for subsistence gardening and are 
operated and maintained through a collaborative effort, which generally 
involves other BIA programs, tribes, and water users. In contrast, 
BIA's 16 irrigation projects that we reported on in our February 2006 
report charged their water users an annual operations and maintenance 
fee to fund the cost of operating and maintaining the project. Most of 
BIA's irrigation projects have been considered self-supporting through 
these operations and maintenance fees. The 16 irrigation projects are 
located on Indian reservations across the agency's Rocky Mountain, 
Northwest, Southwest, and Western regions (see fig. 1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    BIA's management of its irrigation projects was decentralized, with 
regional and local BIA offices responsible for day-to-day operations 
and maintenance. Fourteen projects included in our February 2006 report 
were overseen by local BIA agency superintendents, and the 2 largest 
projects were overseen directly by regional directors. The local agency 
superintendents that oversaw these projects reported to their 
respective regional director. BIA's irrigation and engineering experts, 
who provide technical assistance to the projects, were located in each 
region, as well as in BIA's central office located in Washington, D.C., 
and other BIA locations in the western United States. The regional 
irrigation staff and central irrigation office staff did not have line 
authority over the projects.
    The irrigation facilities constructed by BIA include a range of 
structures for storing and delivering water for agricultural purposes. 
Figure 2 highlights an example of the key structural features found on 
BIA's irrigation projects.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In our February 2006 report,\5\ we found that BIA had estimated the 
cost for deferred maintenance at the 16 irrigation projects at about 
$850 million for fiscal year 2005. See figure 3 for a breakdown of the 
cost estimate by project at that time.
---------------------------------------------------------------------------
    \5\ GAO-06-314.
---------------------------------------------------------------------------
    BIA Estimated the Cost of Deferred Maintenance at about $850 
Million in 2005, but the Estimate Has Since Been Refined to about $570 
Million
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In 2006, we acknowledged that the $850 million estimate was a work 
in progress, but we also found that it was inaccurate for the following 
reasons:

  <bullet> Some projects incorrectly counted certain items as deferred 
        maintenance. Some projects incorrectly counted certain items, 
        such as new construction items and vehicles, as deferred 
        maintenance. For example, the Wapato Irrigation Project 
        included constructing reservoirs and the San Carlos Indian 
        Works Irrigation Project included building a new office. In 
        addition, some projects included the cost of repairing vehicles 
        or buying new ones in their deferred maintenance estimates, 
        despite BIA guidance at the time of our report that such items 
        were not deferred maintenance. For example, the Wind River 
        Irrigation Project included an excavator vehicle, and the Crow 
        Irrigation Project included dump trucks.

  <bullet> Some projects provided BIA with incomplete information. 
        According to BIA officials, some projects did not do thorough 
        assessments of their deferred maintenance needs, and some may 
        not have included legitimate deferred maintenance items, such 
        as resloping canal banks that have eroded by crossing cattle or 
        overgrown vegetation. Moreover, neither the Walker River 
        Irrigation Project nor the Uintah Irrigation Project provided 
        information detailing their deferred maintenance costs at the 
        time of our report.

  <bullet> BIA made errors when compiling the total deferred 
        maintenance cost estimates. For example, BIA inadvertently 
        double-counted the estimate provided by the Colorado River 
        Irrigation Project when compiling the overall cost estimate, 
        according to BIA officials. Additionally, BIA officials 
        erroneously estimated costs for all structures, such as flumes 
        and check gates, based on the full replacement values even when 
        items were in good or fair condition and needed only repairs.

    In 2006, we concluded that while the inclusion of incorrect items 
and calculation errors likely contributed to the overestimation of 
BIA's total deferred maintenance costs, the incomplete information 
provided to BIA by some projects may have contributed to the 
underestimation of the total costs.
    As we reported in 2006, to further refine its cost estimate and to 
develop more comprehensive deferred maintenance lists, BIA planned to 
hire experts in engineering and irrigation to periodically conduct 
thorough condition assessments of all 16 irrigation projects to 
identify deferred maintenance needs and costs. According to BIA 
officials, these thorough condition assessments were expected to more 
accurately reflect each project's actual deferred maintenance, in part 
because experts in engineering and irrigation who can differentiate 
between structural and cosmetic problems were to conduct them. These 
assessments were also to help BIA prioritize the allocation of 
potential funds to complete deferred maintenance items because they 
would assign a prioritization rating to each deferred maintenance item 
based on the estimated repair or replacement cost, as well as the 
overall importance to the project. The first such assessment was 
completed in July 2005, and BIA planned to reassess the condition of 
each project at least once every 5 years, with the first round of such 
condition assessments to be completed by the end of 2010.
    While the irrigation projects included in BIA's estimate of 
deferred maintenance costs have changed somewhat since our report, the 
most recent deferred maintenance cost estimate for fiscal year 2014 was 
just under $570 million (see table 1). \6\ Several reasons may have 
contributed to the lower estimate including more thorough condition 
assessments and maintenance work performed since our report. However, 
we did not assess the reliability of the fiscal year 2014 estimate. \7\ 
The new estimate is presented for comparison purposes to demonstrate 
changes that BIA made to the earlier fiscal year 2005 estimate that we 
raised concerns about in our February 2006 report. Table 1 also shows 
that most of the condition assessments are now more than 5 years old, 
and they were not all completed by 2010. Condition assessments for a 
few projects are still ongoing.
---------------------------------------------------------------------------
    \6\ The fiscal year 2014 and fiscal year 2005 estimates, either by 
project or in total, cannot be directly compared without adjusting for 
inflation. In addition, since the number of projects included in each 
year's total estimate varies, any comparison of the total estimates 
would not be meaningful.
    \7\ Specifically, we did not determine the extent to which BIA 
addressed the inaccuracies that we found in its fiscal year 2005 
estimate or whether any such inaccuracies still remain.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

BIA Addressed the Management Shortcomings Identified in Our February 
        2006 Report
    In our February 2006 report, we found that BIA's management of some 
of its irrigation projects had serious shortcomings that undermined 
effective decisionmaking about project operations and maintenance. 
First, under BIA's organizational structure, in many cases, officials 
with the authority to oversee project managers' decisionmaking lacked 
the technical expertise needed to do so effectively, while the staff 
who had the expertise lacked the necessary authority to oversee project 
managers' decisionmaking. The BIA regional directors and local agency 
superintendents and deputy superintendents that provided oversight on 
projects did not generally have engineering or irrigation expertise and 
relied heavily on the project managers to run the projects. Of the nine 
projects that we visited for our February 2006 report, only two had 
managers at the regional or agency levels who were experts in 
irrigation or engineering. We found that such an organizational 
structure and reliance on the project managers breaks down when the 
person managing the project lacks the expertise required for the 
position--that is, in cases in which BIA has had difficulty filling 
project manager vacancies and has, as a result, hired less qualified 
people. For example, at the Crow project in 2002, a project manager 
with insufficient expertise decided to repair a minor leak in a key 
water delivery structure by dismantling it and replacing it with a 
different type of structure. The new structure was subsequently deemed 
inadequate by BIA's irrigation experts, and the required reconstruction 
delayed water delivery by about a month. Furthermore, we found that the 
BIA staff with the necessary expertise--regional irrigation engineers 
and central irrigation office staff--had no authority over the 16 
projects. Consequently, key technical decisions about project 
operations and maintenance, such as when or how to repair critical 
water delivery infrastructure, did not necessarily get the technical 
oversight or scrutiny needed.
    To address this shortcoming, in our February 2006 report, we 
recommended that BIA provide the necessary level of technical support 
for project managers who have less than the desired level of 
engineering qualifications by putting these projects under the direct 
supervision of regional or central irrigation office staff or by 
implementing more stringent protocols for engineer review and approval 
of actions taken at the projects. In response to our recommendation, in 
February 2007, the Director of BIA issued a technical review and 
assistance policy directive to the relevant BIA regional directors to 
ensure that adequate review and assistance is given to BIA irrigation 
project managers. The policy provided for strict protocols for engineer 
review and approval of actions taken at the projects by those with the 
necessary engineering expertise. It also outlined specific 
responsibilities for irrigation project managers, as well as other key 
irrigation staff. In addition, BIA has made other organizational line 
authority changes to address this recommendation. \8\
---------------------------------------------------------------------------
    \8\ For example, according to BIA, the Rocky Mountain Region 
realigned the organizational structure for its five irrigation 
projects. The five Irrigation Project Managers now report directly to 
the Regional Water Resources Branch Chief, an engineering position.
---------------------------------------------------------------------------
    Second, in our February 2006 report, we found that BIA did not 
consistently provide information and opportunities for stakeholders to 
participate in setting project priorities. Federal regulations required 
BIA to consult with project stakeholders--such as, tribal council 
representatives, as well as Indian and non-Indian water users--in 
setting project priorities but BIA did not consistently do so.9 For 
example, we reported that the Wapato Irrigation Project had shared 
little information on its spending with stakeholders, and the Pine 
River Irrigation Project did not meet with its nontribal stakeholders, 
limiting stakeholders' ability to have an impact on project decisions 
and BIA's ability to benefit from their input.
    925 C.F.R.  171.1(c) (2005). This regulation was amended in 2008 
to require BIA to cooperate and consult with all interested parties, 
especially persons or entities to which it provides irrigation service 
and receives uses of BIA irrigation facilities, such as irrigators and 
landowners. 25 C.F.R.  171.110(b) (2015).
    To address the second shortcoming, in our February 2006 report, we 
recommended that BIA require, at a minimum, that irrigation project 
management meet twice annually with all project stakeholders--once at 
the end of a season and once before the next season--to provide 
information on project operations, including budget plans and actual 
annual expenditures, and to obtain feedback and input. In response to 
our recommendation, in July 2006, the Acting Director of BIA directed 
each of the four BIA regional directors responsible for the 16 
irrigation projects to personally ensure that irrigation staff meet 
twice annually, at a minimum, with water users and other stakeholders--
once at the end of the season and once before the next season. For 
projects that operate year-round, the project managers in consultation 
with project water users were to determine mutually acceptable times 
for holding these two annual meetings. At these meetings, BIA's 
irrigation project managers and irrigation staff were directed to 
provide information on project operations, including budget plans and 
actual annual expenditures, and obtain feedback and input. This policy 
change was published in the Federal Register in April 2007. \10\ In 
addition, BIA irrigation project managers were directed to submit 
documentation of the meetings to BIA headquarters irrigation staff.
---------------------------------------------------------------------------
    \10\ 72 Fed. Reg. 19950 (Apr. 20, 2007).
---------------------------------------------------------------------------
Long-Term Direction of BIA's Irrigation Program Depends on Resolution 
        of a Number of Larger Issues
    In our February 2006 report, we found that the long-term direction 
of BIA's irrigation program depended on the resolution of the following 
larger issues:

  <bullet> Financial sustainability. Of the most importance, BIA did 
        not know to what extent its irrigation projects were capable of 
        financially sustaining themselves, which hindered the agency's 
        ability to address long-standing concerns regarding inadequate 
        funding. Despite this lack of information on the overall 
        financial situation for each of the projects, in the early 
        1960s, BIA classified more than half of the 16 projects that we 
        reported on as fully self-supporting on the basis of annual 
        operations and maintenance fees they collected from water 
        users. These self-supporting projects did not receive any 
        ongoing appropriated funds. These projects were subject to full 
        cost recovery despite the absence of financial information to 
        demonstrate that the water users could sustain this financial 
        burden. The heavy reliance on water users to sustain these 
        projects had created ongoing tension between the water users 
        and BIA. Some water users had complained to BIA that they could 
        not afford the operations and maintenance fees, and they had 
        pressured BIA to keep the fees as low as possible. Without 
        definitive information on the financial situation of each 
        project, we concluded that BIA could not determine what portion 
        of project operations and maintenance costs can be reasonably 
        borne by the water users and to what extent alternative sources 
        of financing, such as congressional appropriations, should be 
        pursued.

  <bullet> Funding for deferred maintenance. The future of BIA's 
        irrigation program also depended on the resolution of how the 
        deferred maintenance will be funded. BIA did not have a plan 
        for how it would obtain funding to fix the deferred maintenance 
        items. Regardless of the precise cost estimate for total 
        deferred maintenance, we concluded that funding deferred 
        maintenance costs in the hundreds of millions of dollars will 
        be a significant challenge in times of tight budgets and 
        competing priorities.

  <bullet> Alternative project managers. Given that BIA must balance 
        irrigation management with its many other missions in support 
        of Indian communities, such as providing education and law 
        enforcement, we reported that there were inherent limits on the 
        resources and knowledge that BIA was able to devote to any one 
        program. As a result of these limitations and competing 
        demands, officials told us at the time of our report that 
        irrigation management is not a priority for BIA. In our 
        February 2006 report, we found that it may be beneficial to 
        consider whether others for whom irrigation is more of a 
        priority or an area of expertise, including other federal 
        agencies, Indian tribes, and water users, could better manage 
        some of the projects. We concluded that successful management 
        of the projects by others, however, would depend on the 
        characteristics of each project and its stakeholders. For 
        example, turning over projects to tribes may be an option for 
        projects where most of the water users are Indian, whereas 
        turning over projects to water users may be an option for 
        projects where water users share similar interests and have a 
        desire to organize into an irrigation district or association.

    To obtain information on the long-term financial sustainability of 
each of the projects, we recommended in our February 2006 report that 
BIA conduct studies to determine both how much it would cost to 
financially sustain each project, and the extent to which water users 
on each project have the ability to pay these costs. \11\ We stated 
that this information would be useful to congressional decision makers 
and other interested parties in debating the long-term direction of 
BIA's irrigation program. However, to date, BIA has not implemented 
this recommendation. In June 2008, the Department of the Interior 
provided us with a memorandum that stated, while the department agreed 
that studies to assess the financial sustainability of the irrigation 
projects would be valuable, it did not have sufficient funding to 
perform these studies--and does not expect to have such funding in the 
foreseeable future.
---------------------------------------------------------------------------
    \11\ GAO-06-314.
---------------------------------------------------------------------------
    In conclusion, BIA irrigation projects continue to face hundreds of 
millions of dollars of deferred maintenance needs. The Senate bill, S. 
438, if enacted, could help address these needs and potentially some of 
the other larger issues that we reported on in our February 2006 
report. By establishing an Indian Irrigation Fund for fiscal years 2015 
through 2036, this bill, if enacted, would help provide needed 
resources to carry out maintenance, repair, and replacement activities 
for certain Indian irrigation projects and funds to conduct a study of 
BIA's Indian irrigation program and project management.
    Chairman Barrasso, Vice Chairman Tester, and Members of the 
Committee, this completes my prepared statement. I would be pleased to 
answer any questions that you may have at this time.

    The Chairman. Thank you very much, Ms. Fennell.
    Next, we will hear from the Honorable Charles Headdress of 
Montana.

           STATEMENT OF HON. CHARLES HEADDRESS, SR., 
COUNCILMAN, ASSINIBOINE AND SIOUX TRIBES, FORT PECK RESERVATION

    Mr. Headdress. Thank you.
    Good afternoon, Chairman Barrasso and Vice Chairman Tester.
    My name is Charles Headdress. I am a member of the Fort 
Peck Tribal Executive Board. I want to thank you both for 
introducing and holding this hearing on S. 438, the IRRIGATE 
Act.
    Fort Peck Reservation encompasses 2.1 million acres, over 
2,000 square miles in northeastern Montana. The tribes and 
individual Indian allottees own about 1 million acres of land 
on the reservation. The development of the irrigation project 
for the Fort Peck Reservation was a key part of the plan and 
obligation that the Federal Government assumed when it 
established our reservation.
    After our reservation was created, the Federal Government, 
using military force, prohibited our people from leaving the 
reservation to hunt. Without the ability to hunt, we could not 
meet our basic needs. The government wanted us to be farmers, 
but reservation resources were not sufficient to do this.
    After several years of drought and starvation among our 
people, the government recognized the need to develop 
irrigation so that we might survive by agriculture. The Fort 
Peck Irrigation Project was authorized by a 1908 Act that 
required the Bureau of Reclamation to construct the Fort Peck 
irrigation system.
    The project was planned with the intent of irrigating up to 
152,000 acres of land. Unfortunately, this never came to be. 
Instead, the Fort Peck Reservation Irrigation Project consists 
of two irrigation units, the Wyoming unit and the Frazer-Wolf 
Point Unit.
    Together, these units can only irrigate 18,953 acres, 
approximately 12 percent of what was initially planned to serve 
my reservation. The critics stated the Fort Peck system was a 
waste and poor.
    The national backlog of deferred maintenance on the 
irrigation projects is in excess of $600 million. According to 
the BIA's 2014 Deferred Maintenance Report, the backlog of 
deferred maintenance for the Fort Peck Project is $12.7 
million.
    The impact of this deferred maintenance on the economy of 
the Fort Peck tribes cannot be understated. The income 
generated by the farming and grazing has been a mainstay for 
the tribes and tribal members. The revenue generated from 
grazing and agricultural leasing of trust land is on average 
30-50 percent of the tribe's total trust income.
    The repair and restoration of the irrigation project is 
also key to creating jobs. The Fort Peck Reservation's 
unemployment rate has hovered above 50 percent for most of the 
last two decades. Poverty among our members remains at epidemic 
levels as illustrated by the fact that more than 80 percent of 
our children are eligible for free or reduced price school 
lunches.
    We have to do more to put our people to work and lift our 
children out of poverty. It is time for Congress to fulfill the 
original promise of the 1908 Act to make our reservation self-
supporting.
    As the Committee moves forward with this legislation, the 
tribes ask that the legislation be amended in three ways. 
First, Congress must clarify the use of these funds to repair 
these tribal irrigation projects is not a reimbursable expense 
to be levied against the project users.
    In the past, when money was appropriated to repair tribal 
irrigation projects, the department deemed it to be 
reimbursable and levied additional assessments against the 
users.
    Second, the unpaid construction debt on the Fort Peck 
Reservation system is $7 million. Demanding repayment of this 
debt is not realistic. While the Secretary has the authority to 
forgive this debt, our pleas have fallen on deaf ears. We urge 
Congress to act now to forgive this debt.
    Finally, we ask that this bill be amended to include the 
Rural Water Projects Completion Act to complete the drinking 
water systems authorized by Congress. These projects include 
the Fort Peck Reservation rural water system and the Rocky Boys 
North Central Project.
    The fate of our reservations rests on the health of our 
people and the health of our people depends on the water we 
drink. Thus, I would urge the Committee, as you take up this 
bill, to amend it to include provisions that would also ensure 
these rural water projects can be completed on time.
    I would like to thank you for your time and your interest 
in this vitally important matter. I would be happy to answer 
any questions.
    [The prepared statement of Mr. Headdress follows:]

    Prepared Statement of Hon. Charles Headdress, Sr., Councilman, 
          Assiniboine and Sioux Tribes, Fort Peck Reservation
    Good afternoon Chairman Barrasso and Vice-Chairman Tester. My name 
is Charles Headdress, Sr., and I am member of the Fort Peck Tribal 
Executive Board, the governing body of the Assiniboine and Sioux Tribes 
of the Fort Peck Reservation. I want to thank you for holding this 
hearing on S. 438, the Irrigation Rehabilitation and Renovation for 
Indian Tribal Governments and their Economies (IRRIGATE) Act. I also 
want to express my appreciation for two of the bill's co-sponsors: 
Senator Tester for the invitation to testify today; and Montana's 
junior Senator Steve Daines for his interest on this important subject 
and in serving on this important Committee.
    The Fort Peck Reservation encompasses 2.1 million acres--over two 
thousand square miles--in remote northeastern Montana. The Assiniboine 
and Sioux Tribes and individual Indian allottees own about 1 million 
acres of land on the Reservation. Nearly 10,000 people live on the 
Reservation, of which roughly two-thirds are Tribal members and non-
member Indians.
    The development of an irrigation project for the Fort Peck 
Reservation was an integral element of the plan and obligation that the 
Federal Government assumed when it established our Reservation. After 
our Reservation was created, the Federal Government, using military 
force, prohibited our people from leaving the Reservation to hunt the 
game on which we historically depended to meet all of our most basic 
needs. The government instead sought to have us engage in farming and 
ranching. But the Reservation resources were not sufficient to do this. 
After several years of drought and starvation among our people, the 
government recognized the need to develop irrigation so that we might, 
in fact, survive by agriculture.
    The Fort Peck Irrigation Project was formally authorized by the Act 
of May 30, 1908. Importantly, pursuant to this 1908 Act, it was the 
Bureau of Reclamation that was charged with direct responsibility for 
materials, workmanship, and economy of construction of the irrigation 
system. Congress recognized that the Bureau of Indian Affairs did not 
have the capability of constructing the kind of irrigation project that 
was needed at Fort Peck. When Congress enacted this legislation it 
intended to provide the Fort Peck Tribes with the means to become 
selfsupporting through the development of agricultural and grazing 
lands. Accordingly, the project was planned with the intent of 
irrigating up to 152,000 acres of land. Unfortunately, for a number of 
reasons associated with various failed federal policies--including 
allotment, removal of children from homes (which impeded the ability to 
run family farms, as there were no families), and the levying of 
construction debt against trust property--this never came to be.
    Instead today, the Fort Peck Reservation Irrigation Project 
consists of two irrigation units: the Wiota Unit and Frazer-Wolf Point 
Unit. Together these units irrigate only 18,953 acres, approximately 12 
percent of what was initially planned to serve my Reservation to meet 
the needs of my people. Out of these 18,953 acres, only 9,758 acres 
remain in trust, with the other 9,195 acres held in fee status. Some of 
the fee lands are owned by Tribal members.
    The current condition of the Fort Peck Reservation Irrigation 
System is worse than poor. The national backlog of deferred maintenance 
on irrigation projects is in excess of $600 million. According to the 
BIA's 2014 Q4 Deferred Maintenance Report, the total backlog deferred 
maintenance for the Fort Peck Project is $12.7 million.
    The impact of this deferred maintenance on the economy of the Fort 
Peck Tribes cannot be understated. Throughout the history of the 
Reservation the income generated by the farming and grazing has been a 
mainstay for the Tribes and Tribal members. Even in the years when 
there was an oil and gas boom for the Reservation, the revenue 
generated from grazing and agricultural leasing of the Tribes' trust 
lands was still approximately 30-50 percent of the Tribes' total trust 
income. In more recent years, where revenues from oil and gas have 
declined, the agricultural revenues are at the heart of funding Tribal 
government operations, programs, and services that are so critically 
needed by our people. The repair and restoration of the irrigation 
system is also key to creating jobs. The Fort Peck Reservation's 
unemployment rate has hovered above 50 percent for most of the last two 
decades. Poverty among our members remains at epidemic levels, as 
illustrated by the fact that more than 80 percent of our children are 
eligible for free or reduced-price school lunch. We have to do more to 
put our people to work and lift our children out of poverty. It is time 
for Congress to fulfill the original promise of the 1908 Act to make 
our Reservation self-supporting.
    Thus, the Fort Peck Tribes stand in support of the IRRIGATE Act. 
This Act will address the $600 million tribal irrigation maintenance 
and repair backlog by allocating from the Reclamation Fund, $35 million 
each year from 2015 through 2036, into a new account in the Treasury 
called the Indian Irrigation Fund.
    For those who might say this is not an appropriate use of the 
Reclamation Fund, we would like to correct them. The use of the 
Reclamation Fund to repair the Fort Peck Irrigation Project is entirely 
appropriate and is in fact, exactly the purpose for which the 
Reclamation Fund was established. The Fort Peck Project was originally 
developed as a Reclamation Project. The fact that the project could not 
generate revenues necessary to maintain itself is a consequence of 
Reclamation's failure to do its job right in the first place.
    In this regard, the Tribes ask that the legislation be clarified to 
state that use of these funds to repair these Tribal irrigation 
projects is not a reimbursable expense. In the past, when money was 
appropriated to repair tribal irrigation projects, the Department 
deemed it to be reimbursable and levied additional assessments against 
the users. Currently, the unpaid construction debt on Fort Peck 
Reservation system is $7 million. Almost two decades ago, the Bureau of 
Reclamation did an analysis of the users' payment capacity and found it 
to be $15.50 per acre ($14.00 in O&M and $1.50 in construction 
repayment). Those figures would have meant it would have taken 250 
years to satisfy the construction debt. Demanding repayment was not 
realistic then and it is not realistic now. We do not believe you 
intend the funds to be provided by the IRRIGATE Act to be added to the 
Project's construction debt, but given the Department's past positions, 
we urge that the legislation make clear that the funds provided are not 
to be subject to repayment by the users.
    Moreover, to ensure the viability of the Fort Peck Project, we urge 
Congress to forgive the existing project debt. The amount of idle 
acreage continues to increase because landowners and potential lessees 
cannot afford to bring the debt current to get water delivered to the 
property. This both leaves the land idle, and decreases its value. As a 
consequence the Fort Peck Project is under-serving the intended project 
area. Even more troubling, we have heard from fractionated landowners 
within the Project that the government has become increasingly 
aggressive in seeking to recover Project debt. The Tribes at Fort Peck 
have been urging Congress to address this unfairness since 1993. While 
the Secretary has the authority to forgive this debt, our pleas have 
fallen on deaf ears. Congress has forgiven irrigation project debt in 
the past, including past debt for the Fort Peck Project, and we urge 
Congress to act now to forgive the current debt.
    Beyond strengthening our tribal economy, repairing this project and 
addressing its debt would help preserve our resources. We are all aware 
of the need to use our resources efficiently, and there is no natural 
resource more precious to our people than water. This is especially 
true when the West is facing some of the worst droughts this Nation has 
ever experienced. By repairing and maintaining this Project, we will be 
ensuring that the water resources that the Fort Peck Tribes have fought 
so hard to protect are used wisely and efficiently.
    In this regard, last Congress both the Chairman and the Vice-
Chairman supported a similar bill in the Senate, the Rural Water 
Projects Completion Act, which was approved by the Senate Energy and 
Natural Resources Committee. Senator Daines introduced a companion bill 
during his tenure in the House. In addition to addressing the 
irrigation project maintenance and repair backlog, these bills would 
have created a mechanism to complete the several Rural Water Projects 
that have been authorized by Congress. These Projects include the Fort 
Peck Reservation Rural Water System and the Rocky Boy's North Central 
Project. The fate of our Reservations rests on the health of our 
people, and the health of our people depends on the water we drink. I 
know that Senator Tester knows this. There is probably no other United 
States Senator who cannot drink the water that comes from his kitchen 
sink, but I know that is the case for Senator Tester. Thus, I would 
urge the Committee as you take up this bill to follow the leadership of 
Senators Tester and Daines to amend it to include provisions that would 
also ensure that these rural water projects can be completed on time.
    I would like to thank you for your time and interest in this 
vitally important matter, and I would be happy to answer any questions.

Supplemental Testimony
    On behalf of the Fort Peck Tribes, we again want to thank you for 
introducing S. 438, the IRRIGATE Act, and holding a hearing on this 
important measure. We also very much appreciate having the opportunity 
to testify at the hearing. We write to supplement the testimony that we 
submitted and to provide additional information in response to the 
questions raised during the hearing.
    What the irrigation project means for Fort Peck today and how 
important it and agriculture are for economic development at Fort Peck. 
The Irrigation Project and agriculture generally are a central part of 
our economy. This is so for several reasons:
    First, a working irrigation project provides direct employment to 
the families who own the land within the irrigation project and who are 
running farms on that land.
    Second, a working irrigation project not only benefits the families 
that are actually irrigating the land, but also many tribal members who 
own interests in trust land within the project and who lease those 
lands to farmers. Even where trust lands are fractionated, the rent 
paid on the leases of those lands is an important source of income to 
tribal members.
    Third, the lands that are irrigated are used to grow alfalfa and 
hay, which--in turn--helps support the livestock industry on other 
parts of the Reservation. Many tribal members are ranchers who buy hay 
from the irrigators and others. In some years, if there is drought in 
other parts of the country, the market for hay is very good and hay 
grown at Fort Peck has been sold to ranchers outside the Reservation. 
We estimate that about 30 percent of Tribal members make their living 
from farming and ranching.
    Fourth, income from farming and grazing is a very large portion of 
the Tribes' budget. Even in the years when we had an oil and gas boom 
on the Reservation, income from farming and grazing leases was between 
30 percent and 50 percent of Tribal revenues. Today, income from these 
leases is even a bigger portion of our Tribal income. That money is 
then used to help pay for our government programs and services and to 
employ many tribal members who work for the Tribes.
    In short, agriculture has direct and indirect benefits for 
essentially all of the 10,000 people who live on our Reservation, 
approximately 8,000 of whom are Tribal members and other Indians.
    The current condition of the project. There are 18,953 acres of 
land within the Fort Peck Irrigation Project. Approximately 10 percent 
of the land within the project is not productive and the backlog of 
deferred maintenance is a factor which contributes to this.
    The limited funding available to repair and maintain Indian 
Irrigation Projects means that maintenance is not done until elements 
of the project are at risk of complete failure. That is what has 
occurred at Fort Peck. We were fortunate that last year a portion of 
the BIA's Irrigation Projects-Rehabilitation Program funds were 
allocated to repair portions of the Frazer and Wiota Pump Stations. But 
this occurred in large part because of the serious deterioration of 
those stations. The need for repairs to these pump stations had been a 
high priority for close to 10 years before the funds became available. 
As set out in the President's Budget for FY 2015 released in January 
2014, the Frazer Pump Station is 40 years old and three of the four 
pumps have exceeded their expected service life. The outlet pipes are 
severely corroded and on the verge of compromising the entire system. 
There are also significant safety issues surrounding the entire system, 
and 13,000 acres of farmland would not be irrigated at all if this pump 
station were inoperable. The funds allocated last year are now being 
used to address part of these problems. We were able to install one new 
pump in the Frazer Station and one new pump in the Wiota Station, along 
with the related electric work for each and some work on the outlet 
pipes.
    But additional work still remains to be done. The other pumps at 
these stations are old, so while they are still working, they are still 
past the expected service life. There is constant need to maintain 
canals, laterals and ditches. Many of these have considerable 
overgrowth of vegetation, and many of the concrete structures are 
cracked and deteriorating. We also see significant silt buildup which 
has become worse over time. Some years ago there were fingers of 
riprap, rock and other material on the other side of the river which 
accelerated the river flow and limited the silt deposit. But those 
fingers have worn out and we have since seen considerable buildup of 
silt which we will need to remove.
    In addition, the low levels of water in the river means that we 
often have high growth of moss which then gets caught in and threatens 
to clog the intakes of the pumping stations. To prevent clogged intakes 
(which would jam and burn-out the pumps and threaten stress cracks in 
the structure), we have had to have staff, in boats, manually remove 
moss from the intakes. This activity is highly dangerous, as river 
currents are pushing the boat into the intakes and we had one near 
drowning last year. There is equipment that could do this work 
automatically--but the cost, based on estimates a few years ago, was 
$100,000 per bay, with the Frazer Pumping Station and Wiota Pumping 
Station having a combined total of seven bays. There are no funds to 
acquire this equipment.
    The adverse impact of reimbursable construction costs on the Tribes 
and individual landowners. During the hearing, we explained that the 
Interior Department's demands that trust landowners repay construction 
debt which has been assessed against the trust property has created a 
substantial problem for both tribal members and the Tribes. When the 
federal government undertook to develop irrigation projects on Indian 
reservations in the late 1800s and early 1900s, congressional policy 
regarding the costs of such projects varied. On some reservations, the 
costs of construction were initially to be paid simply out of 
appropriated federal funds. For others, however, the authorizing 
statute directed that the costs be reimbursed out of tribal funds. 
Beginning in 1914, Congress directed that construction costs for all 
such projects be paid by the persons who owned land served by the 
irrigation project. However, these acts were not enforced against non-
Indians who had purchased allotments and acquired vested rights in the 
land prior to the statutes' effective dates, although construction 
costs were still assessed against Indian lands. \1\
---------------------------------------------------------------------------
    \1\ This history is summarized in Felix S. Cohen's Handbook of 
Federal Indian Law at 729-730 (1982 ed.)
---------------------------------------------------------------------------
    Indians could not pay these costs, and many of the irrigation 
projects that were built--including several at Fort Peck--proved not to 
be viable due to irregular and undependable water supplies and were 
later abandoned. Indeed, at Fort Peck it was not until 1940, with the 
construction of the Fort Peck Dam on the Missouri River, that there was 
a certain enough water supply to allow for effective implementation of 
the irrigation units that remain today.
    In 1932, Congress recognized the inequities of seeking to recover 
construction costs from Indians and enacted the Leavitt Act to relieve 
Indians of liability for construction costs and defer assessment of all 
future construction costs so long as the lands remained in Indian 
ownership. 47 Stat. 564 codified at 25 U.S.C. 386a. In 1936, another 
act of Congress authorized the Secretary of the Interior to investigate 
whether the owners of non-Indian lands within Indian irrigation 
projects are unable to pay irrigation charges, including construction 
costs, and to adjust defer or cancel such charges. Act of June 22, 
1936, 49 Stat. 1803, codified at 25 U.S.C. 389-389e.
    While a portion of the original construction costs assessed against 
the Fort Peck Irrigation Project were cancelled under these acts,\2\ 
part of those charges remain and continue to be liens against trust and 
fee lands. In more recent years, the Secretary has relied on the early 
statutes to conclude that other federal funds appropriated to repair or 
rehabilitate the projects are to be assessed against and reimbursed 
from the landowners. For example, in 1990, when Congress appropriated 
$995,000 for rehabilitation and betterment of the Indian Irrigation 
Projects, including the Fort Peck Irrigation Project, those 
construction costs were assessed against the landowners and, although 
collection of the charges were deferred as to trust lands, those costs 
are, nevertheless liens against the trust property. See Fort Peck 
Water-users Association v. Billings Area Director, BIA, 26 IBIA 90 
(1994).
---------------------------------------------------------------------------
    \2\ For example, following enactment of the Leavitt Act, the 
Secretary cancelled only $430,278 of construction and O&M costs 
assessed against the Fort Peck Project, on the assumption that the 
landowners could repay the remaining $581,530 in construction costs 
then assessed against the project. H. Doc. No. 72-501 at 16-18, 27-38 
(1932). In 1967, Congress approved a Secretarial order cancelling 
$206,902 in reimbursable construction costs, as well as $118,266 in 
unassessed construction costs allocable against both Indian and non-
Indian owned lands at Fort Peck. P. L. No. 90-143, Nov. 16, 1967, 81 
Stat. 465. The cancelled costs were a portion of the outstanding costs 
that related to a) irrigation units that no longer functioned, b) costs 
incurred but not attributed to any specific lands within the project, 
and c) part of the costs assessed against non-Indian landowners to 
equalize the charges with those assessed against Indian lands. S. Rept. 
No. 90-691 (1967); H.R. Rept. No. 90-748 (1967).
---------------------------------------------------------------------------
    One of the complications presented by the outstanding liens on the 
property is their impact of the Land Buyback Program. The Fort Peck 
Tribes are trying to repurchase the fractioned interests through that 
program, but for fractioned trust lands that are within the Irrigation 
Project, the liens create significant additional issues. These liens 
impact the appraisals required under the Buyback Program. Where there 
is outstanding debt and the land has been out of production, there are 
questions about whether it should be appraised simply as dryland (at a 
much lower value) or for its potential as irrigated lands. In addition, 
even when outstanding debts are repaid so that the land can be 
irrigated, work often needs to be done to put the land back into a 
condition where irrigation will be effective.
    It has not yet been possible to maintain the Fort Peck Irrigation 
Project through the claims for reimbursement of construction costs and 
assessment of O&M charges. The failure to determine the feasibility of 
such projects at the time of their original construction, to keep 
records necessary to properly allocate costs, and to do the work needed 
to properly maintain these projects, has prevented irrigation projects 
like that at Fort Peck from becoming self-sustaining. The outstanding 
debts, in turn, have resulted in a vicious cycle where lack of adequate 
funds to maintain and repair the irrigation systems leads to increasing 
amounts of deferred maintenance, which over time, means that land 
within the irrigation project is not productively used. And as more 
land is out of production, less can be paid in O&M charges, thereby 
compounding the backlog of deferred maintenance.
    Forgiving the existing debt would make a major difference. At a 
minimum, however, S. 438 should include express language that the funds 
made available under it not be reimbursable. The funding authorized by 
S. 438 should be used to address the deferred maintenance on terms that 
create a fresh start--so that these projects can be brought back to 
working condition and the landowners given the opportunity to move 
forward without the burdens of repaying costs of repair and 
rehabilitation that have become so large as a result of past failed 
policies.
    We do not believe that the sponsors of S. 438 intended that the 
funds authorized by this bill be reimbursable from the landowners. When 
the substantive provisions of this bill were considered last year (in 
S. 715), and OMB scored those provisions, OMB treated these funds as 
non-reimbursable. See S. Rept. No. 113-167 at 12 (2014). However, given 
the Department's policies in implementing the other federal laws that 
can bear on these projects, a clear statement in this legislation, that 
the costs are not reimbursable, is important.
    The possibility of expanding the current irrigation system. The 
Fort Peck Tribes welcome all opportunities to improve our community and 
develop our economy. Water is an integral part of that. Over the years, 
the Tribes have identified additional locations that, based on 
feasibility studies, are good candidates for irrigation projects within 
the Reservation. One such project is a potential pivot irrigation 
system in Fort Kipp that has access to the Missouri River and would 
cover 2,300 acres. Another potential pivot irrigation system is in an 
area known as North of Sprole, which is just east of Poplar. This 
project, if developed, could irrigate approximately 15,000 acres of 
land of which 42 percent are tribal, 30 percent are allotted and 28 
percent are fee. We think expanding irrigation on the Reservation will 
bring positive results and move toward fulfilling promises that have 
been long forgotten.
    Conclusion. Again, we want to express our sincere appreciation to 
this Committee for its commitment and work on this important matter.

    The Chairman. Thank you very much, Mr. Headdress. I 
appreciate you being here.
    Our next witness is Mitchel T. Cottenoir, Tribal Water 
Engineer, Shoshone and Arapaho Tribes of the Wind River 
Reservation, Fort Washakie, Wyoming. Thanks so much for joining 
us.

        STATEMENT OF MITCHEL T. COTTENOIR, TRIBAL WATER 
            ENGINEER, EASTERN SHOSHONE AND NORTHERN 
             ARAPAHO TRIBES, WIND RIVER RESERVATION

    Mr. Cottenoir. Chairman Barrasso, Vice Chairman Tester and 
members of the Committee, thank you for inviting me as a 
representative of the Eastern Shoshone and Northern Arapaho 
Tribes to appear before you today.
    The condition of the Wind River Irrigation Project, as well 
as numerous other Bureau of Indian Affairs operated irrigation 
systems, is well documented. The Wind River Irrigation Project 
was authorized for construction in 1905 but was never 
completed.
    Since that time, the project, under the operation of the 
BIA, has been neglected to the extent that the cost to 
rehabilitate and complete the system is estimated in the range 
of $30-$90 million.
    The Wind River Irrigation Project is significantly under 
staffed and has operated inefficiently with only minor 
necessary maintenance. The BIA continues to not have a long 
term plan for rehabilitation of the Wind River Irrigation 
Project.
    Therefore, the Eastern Shoshone and the Northern Arapaho 
Tribes, the Wind River Water Resource Control Board and the 
Office of the Tribal Water Engineer have undertaken a major 
rehabilitation effort to rehabilitate aging structures crucial 
to the operation of the system.
    The tribes have utilized Federal appropriations acquired 
through the efforts led by Senator Mike Enzi in 2005 and 2006 
totaling $3.72 million and leveraged them with State of Wyoming 
funding through the Wyoming Water Development Commission to 
rehabilitate 15 major structures in the system at a cost of 
$7.7 million.
    In further effort to provide the required operational and 
maintenance needs of the system, the tribes have encouraged 
irrigators to form water user associations. These associations 
have negotiated cooperative assistance agreements with the 
Bureau of Indian Affairs to assume the operation and 
maintenance of their designated portion of the system.
    A percentage of the irrigation assessment is returned to 
the association to provide funding for operations, staff and 
needed maintenance. Under the CAAs, each association has seen a 
dramatic improvement in the overall operation and maintenance 
in their part of the system compared to the past service 
provided by the BIA.
    In addition, the tribes have initiated an effort to assume 
the operation and maintenance responsibilities of the system 
under the Indian Self Determination Act, Public Law 93-638. 
This action would empower the tribes to operate the system more 
efficiently and effectively. Rehabilitation will become a 
priority rather than an afterthought.
    This effort has also been encouraged by agency and regional 
level BIA water source management.
    With these two strategies, the Bureau of Indian Affairs 
would be eliminated from the equation. This leaves us with the 
responsibility to operate, maintain and rehabilitate an aging 
and deteriorating system on the Wind River.
    The tribes have compiled a proven track record and have 
demonstrated the ability to move the rehabilitation effort 
forward for the benefit of not only tribal members but our non-
tribal neighbors.
    Funds that would become available through S. 438, the 
IRRIGATE Act, would enable the tribes to continue this effort. 
The IRRIGATE Act could be utilized to leverage funds from the 
Wyoming Water Development Commission. In doing so, this could 
expedite the much needed rehabilitation and completion of the 
Wind River Irrigation Project which has for so long been 
neglected by the Bureau of Indian Affairs.
    Senator Barrasso, Vice Chairman Tester and members of the 
Committee, the funding from this bill is simply vital to our 
efforts. We realize that only through our efforts and yours 
will this absolutely essential rehabilitation occur. Not only 
can we do this, we must do this.
    Senator Barrasso, the Eastern Shoshone and the Northern 
Arapaho Tribes, the Wind River Water Resource Control Board and 
the Office of the Tribal Water Engineer strongly endorse S. 
438, the Irrigation Rehabilitation and Renovation for Indian 
Tribal Governments and Their Economies Act or the IRRIGATE Act, 
as we did with S. 715 when the Barrasso amendment was added in 
the previous Congress.
    We also encourage members of the Committee to do all in 
their power in moving the IRRIGATE Act forward successfully. 
The Eastern Shoshone and Northern Arapaho Tribes look forward 
to working closely with you now and in the future.
    Thank you for your time and consideration.
    [The prepared statement of Mr. Cottenoir follows:]

  Prepared Statement of Mitchel T. Cottenoir, Tribal Water Engineer, 
  Eastern Shoshone and Northern Arapaho Tribes, Wind River Reservation

    Chairman Barrasso, Vice Chairman Tester and members of the 
Committee, thank you for inviting me as a representative of the 
Eastern Shoshone and Northern Arapaho Tribes to appear before 
you today.
    The condition of the Wind River Irrigation Project, as well 
as numerous other Bureau of Indian Affairs operated irrigation 
systems, is well documented. The Wind River Irrigation Project 
was authorized for construction in 1905, but was never 
completed. Since that time the project, under the operation of 
the BIA, has been neglected to the extent that the cost to 
rehabilitate and complete the system is estimated in the range 
of $30-$90 million.
    Bureau of Indian Affairs Irrigation at the Wind River is 
significantly understaffed and the system is operated 
inefficiently with only minor necessary maintenance.
    The BIA continues to not have a long term plan for 
rehabilitation of the Wind River Irrigation Project. Therefore, 
the Eastern Shoshone and Northern Arapaho Tribes, the Wind 
River Water Resource Control Board and the Office of the Tribal 
Water Engineer have undertaken a major rehabilitation effort to 
rehabilitate aging structures that are crucial to the operation 
of the system.
    To further provide the required operational and maintenance 
needs of the system the Tribes have encouraged irrigators in 
the system to form water users associations. These associations 
have negotiated Cooperative Assistance Agreements (CAA) with 
the Bureau of Indian Affairs to assume the operation and 
maintenance of their designated portion of the system. A 
percentage of the irrigation assessment is returned to the 
association to provide funding for operating staff and needed 
maintenance. Under the CAA each association has seen a dramatic 
improvement the overall operation and maintenance of their part 
of the system compared to the past services provided by the 
Bureau of Indian Affairs.
    It is hoped that each association can accumulate a 
rehabilitation fund to assist in the rehabilitation effort and 
that can be leveraged to acquire additional funding from 
sources such as the Wyoming Water Development Commission 
(WWDC). We have had some success in such efforts in recent 
years.
    In addition, the Tribes have initiated an effort to assume 
the Operation and Maintenance responsibilities from the BIA 
under the Indian Self-determination Act PL 93-638. This action 
would empower the Tribes to operate the system more efficiently 
and effectively. Rehabilitation would become a priority rather 
than an afterthought. This effort has also been encouraged by 
Agency and Regional Level Bureau of Indian Affairs Water 
Resource management.
    With these two strategies, the Bureau of Indian Affairs is 
eliminated from the equation. It leaves us with the 
responsibility to operate, maintain and rehabilitate the aging 
and deteriorating system on the Wind River.
    The Eastern Shoshone and Northern Arapaho Tribes, the Wind 
River Water Resource Control Board and the Office of the Tribal 
Water Engineer strongly endorse S. 438, the Irrigation 
Rehabilitation and Renovation for Indian Tribal Governments and 
Their Economies Act or the ``IRRIGATE Act''. The funds through 
this bill would provide for the much needed rehabilitation of 
the Wind River Irrigation Project that has for decades been 
neglected by the Bureau of Indian Affairs. The Eastern Shoshone 
and Northern Arapaho Tribes ask for your individual support in 
successfully moving the bill forward.
    The Tribes have compiled a proven track record and have 
demonstrated the ability to move the rehabilitation effort 
forward for the benefit of not only Tribal members, but also 
our non-tribal neighbors. Funds that would become available to 
the Tribes through the IRRIGATE Act would enable the Tribes to 
continue this effort. The IRRIGATE Act funding could be 
utilized to leverage funding from the State of Wyoming and the 
WWDC. Tribal participation in this program was allowed for 
under the 2003 Wyoming State Legislature House Bill 144. In 
doing so, this could expedite the much needed rehabilitation 
and completion of the Wind River Irrigation Project which has 
so long been neglected by the Bureau of Indian Affairs.
    In 2004 in an effort to facilitate the rehabilitation of 
the Wind River Irrigation Project, the Eastern Shoshone and 
Northern Arapaho Tribes through the efforts of the Wind River 
Water Resource Control Board applied to and were granted a 
$3.5M grant from the WWDC to aid in the rehabilitation of 
irrigation structures that were critical to the operation of 
the system. This State Appropriation was a 50 percent grant 
that required an additional $3.5M in matching funds before the 
State funds could be used. Through the efforts of the Wind 
River Water Resource Control Board in conjunction with the 
efforts led by Senator Mike Enzi, a Federal appropriation of 
$3.72M was secured in 2005 and 2006 as matching funds for the 
$3.5M in State funds.
    These funding sources were utilized to rehabilitate 15 
major structures that were crucial to the operation of the 
irrigation system. These structures include: the Johnstown and 
Lefthand Ditch diversion and waste-way structures on the Big 
Wind River, the Coolidge Canal--Trout Creek diversion 
structure, the Mill Creek--Ray Canal Crossing structure, the 
Ray Canal--South Fork of the Little Wind diversion structure, 
the Coolidge Canal--Little Wind diversion structure, Ray Canal 
11C, 39C and 59C diversion structures, Coolidge Canal 14B 
diversion structure, the Sub-agency Canal--Little Wind River 
diversion structure, the North Fork of the Little Wind River 
diversion chute structure, and the Willow Creek and Meadow 
Creek diversion structures in the Crowheart area.
    Incorporated in the design and construction of the Coolidge 
and Sub-agency structures are Fish Ladders. In addition to a 
Fish Ladder, a Fish Screen structure was also designed and 
constructed on Ray Canal. The fish passage will mitigate the 
loss of hundreds of thousands of fish to the irrigation system. 
The fish passage project was a combined effort among the 
Tribes, the US Fish and Wildlife Service, the Bureau of Indian 
Affairs, Trout Unlimited and the State of Wyoming.
    The total cost of these 15 structures (Phase I of the Wind 
River Irrigation Rehabilitation Project) was $7,713,695.
    Without the efforts of the Eastern Shoshone and Northern 
Arapaho Tribes through the Wind River Water Resource Control 
Board, Phase I of the rehabilitation process would not be 
occurring.
    The Tribes and WRWRCB continue to pursue additional funds 
for the rehabilitation effort from the State of Wyoming through 
the WWDC. The Tribes have come to the table with $730,000 and 
have requested a matching grant in the amount of $1,482,121 
from the Wyoming Water Development Commission. These funds will 
enable the Tribes to address the rehabilitation of structures 
identified on the Phase II priority list in Table 1.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Tribes will continue this phased approach to the 
Rehabilitation Process. Additional phases and priority lists 
will be developed and added as funding is acquired.
    Although the Tribes appreciate the financial support of the 
State of Wyoming, the funding only scratches the surface of 
what is necessary to bring the Wind River Irrigation Project up 
to the standards of non-Indian irrigation projects in close 
proximity to the Wind River Indian Reservation. The Tribes 
request the aid and assistance of both Senators Barrasso and 
Enzi and the Senate Committee on Indian Affairs to help secure 
future funding for the ongoing rehabilitation of the Wind River 
Irrigation System. For this reason, the Eastern Shoshone and 
Northern Arapaho Tribes, the Wind River Water Resource Control 
Board and the Office of the Tribal Water Engineer again endorse 
S. 438, the ``Irrigation Rehabilitation and Renovation for 
Indian Tribal Governments and Their Economies Act'' or the 
``IRRIGATE Act''.
    According to the GAO Report 06-314 dated February 2006, the 
Wind River Irrigation Project was authorized for construction 
in 1905 but construction was never completed.
    The Wind River Irrigation Project is comprised of 3 storage 
facilities, 11 canals and 377 miles of canals and laterals. 
These facilities provide water to 38,300 acres of which 67 
percent is Indian owned and 33 percent non-Indian owned.
    According to the 1994 Natural Resource Consulting Engineers 
(NRCE) Project Assessment and Plan, no Project-wide 
rehabilitation of the delivery system has occurred since the 
1930's. According to that study due to deferred maintenance 
over many years, 60 percent or 1200 structures were in need of 
repair or replacement and 45 percent or 190 miles of canals and 
laterals need repair or reconstruction. According to the study 
structure failures were routine resulting in the progressive 
loss of control of Project water and that catastrophic failure 
of segments of the delivery system was imminent. According to 
the 1994 NRCE Project Assessment and Plan due to the Project's 
current configuration, it only has 66 acres of irrigated land 
per mile of canal. In comparison, Midvale Irrigation District 
has over 160 acres per mile of canal. As a general guideline, 
the Bureau of Reclamation suggests that irrigation projects, in 
the region, need at least 140 acres of irrigated land per mile 
of canal to be economically self-sufficient. The study also 
stated that the resulting poor delivery performance had 
contributed to a progressive deterioration in crop quality and 
the water users' ability to pay assessments. It is apparent 
that the Wind River Irrigation System cannot be considered 
self-sufficient.
    The condition of the Wind River Irrigation Project sadly 
continues to deteriorate. With the exception of the Tribes' 
Phase I Rehabilitation Project, little has changed since the 
1994 NRCE Wind River Irrigation Project Assessment, the 2006 
GAO-Report numbered 06-314 or the 2008 HKM Wind River 
Irrigation Project Engineering Evaluation and Condition 
Assessment. The $7,713,695 of Phase I barely scratched the 
surface in addressing the needs as outlined in the 2008 HKM 
Wind River Irrigation Project Engineering Evaluation and 
Condition assessment where the estimated costs for needed 
replacement construction to be $69,640,000. According to the 
calculator on the Bureau of Labor and Statistics, something 
that cost $100 in 2008 cost $110.70 in 2014, which is a 10.7 
percent increase; inflation raises those cost to approximately 
$77,091,500 in 2014.
    Clearly something needs to be done. If funds are not made 
available to deal with the rehabilitation needed, the project 
will continue to lose water, and both the Indian and non-Indian 
people who rely on the project, as well as the fisheries 
impacted by the project, will all suffer.
    In addition to the rehabilitation effort, in 2014 the 
Tribes successfully submitted Level II Phase II Storage Site 
Study applications to the WWDC. These studies will identify at 
least 2 suitable storage sites on each of the Big and Little 
Wind Rivers. The need for additional storage on the Wind River 
Reservation has been graphically demonstrated during drought 
years when irrigators have been shut off early in the summer 
months as early as the first or second week in July. These 
storage studies and the successful identification of storage 
sites will not only benefit Tribal irrigators but also all 
water users on the Wind/Big Horn River system.
    What follows is a report on the Wind River Irrigation 
Rehabilitation Project. The photos graphically show what 
progress looks like, i.e., what we can jointly accomplish when 
we have the funding as well as demonstrate what happens when 
maintenance is deferred and the project is allowed to 
deteriorate.
    In order for the rehabilitation effort to move forward, it 
will take a united effort from the Eastern Shoshone and 
Northern Arapaho Tribes, the Bureau of Indian Affairs, the 
Wyoming Water Development Commission, and our State and Federal 
Legislators.
    Chairman Barrasso, Vice-Chairman Tester and members of the 
committee, the funding from this bill is simply vital to our 
efforts. We realize that only through our efforts, and yours, 
will this absolutely essential rehabilitation occur. Not only 
can we do this, we must do this.
    Chairman Barrasso, the Eastern Shoshone and Northern 
Arapaho Tribes, the Wind River Water Resource Control Board and 
the Office of the Tribal Water Engineer strongly endorse S. 
438, the ``Irrigation Rehabilitation and Renovation for Indian 
Tribal Governments and Their Economies Act'' or the ``IRRIGATE 
Act'' as we did S. 715 when the Barrasso amendment was added to 
it in the previous Congress.
    We also encourage members of this committee to do all that 
is their power to help in moving the IRRIGATE Act forward 
successfully. The Eastern Shoshone and Northern Arapaho Tribes 
look forward to working closely with you now and in the future.
    Your strong support of the Tribes and their efforts is of 
the utmost importance. Our efforts will bring much needed 
relief to both Tribal and non-Tribal irrigators on the Wind 
River Reservation.
    Thank you for your time and consideration.
    Attachment
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    

    The Chairman. Thank you so much for your testimony, Mr. 
Cottenoir.
    Our next witness is Mr. Harry LaBonde, Director, Wyoming 
Water Development Commission, Cheyenne, Wyoming.

  STATEMENT OF HARRY C. LABONDE JR., DIRECTOR, WYOMING WATER 
                     DEVELOPMENT COMMISSION

    Mr. LaBonde. Chairman Barrasso, Vice Chairman Tester and 
members of the Committee, thank you for this opportunity to 
appear before you.
    The Wyoming Water Department Commission is charged with 
developing the water resources of Wyoming for the benefit of 
its citizens. Those citizens certainly include residents of the 
Wind River Indian Reservation.
    My agency is basically a funding agency where we fund water 
projects across the State. They tend to fall into two basic 
categories: potable water systems and irrigation systems. 
Eligible entities include cities, towns, water districts, 
irrigation districts and the Northern Arapaho Tribe and the 
Eastern Shoshone Tribe in Wyoming.
    The program is funded with severance tax revenues directed 
to my program. We fund our water projects with a grant-loan 
package. Typically, we will see on projects that have access to 
Federal funding, like projects on the reservation, we will fund 
those projects at a 50-50 ratio, 50 percent State funds in the 
form of a grant and the local entity is required to come up 
with an additional 50 percent of their share.
    Occasionally, those projects will have a different Federal 
share. It depends on the funding scenario. I have seen projects 
where the Federal share has been 65 percent with a 35 percent 
State grant. The point is it is a joint program used to develop 
projects across the State of Wyoming.
    On the Wind River Indian Reservation, we have funded a 
number of potable water systems for Arapaho, Ethete and the 
Boulder Flats Project developing potable water. We have also 
funded, as mentioned by Mitch, an irrigation rehabilitation 
system. That was a 50-50 grant funding scenario. In fact, you 
see a project for one of the completed diversion structures on 
that project.
    We also have a project coming forward, the next phase, a 
$2.2 million project and we are funding that project at a 67 
percent share grant from the State of Wyoming and a 33 percent 
share from the local tribes. That was because they did not have 
access to Federal funds in developing their local share.
    In 2008, the BIA commissioned a study for irrigation system 
assessment on the reservation. They looked at seven or eight 
irrigation projects, canals that had been developed over the 
years and generated a cost estimate to repair, replace and 
upgrade those systems that totaled about $104 million, just on 
the Wind River Indian Reservation. The $7 million project that 
has been mentioned was working against that backlog.
    If you take that 2008 cost estimate, I just inflated it at 
3 percent a year and subtracted the $7 million project, as well 
as our newer $2 million project, I am still coming up with just 
short of $120 million of improvements needed on the Wind River 
Indian Reservation.
    One of the obstacles that the tribes face in Wyoming is 
developing this local funding share. The Wyoming legislature 
has created a Select Committee on Tribal Relations. I 
frequently attend their meetings during the year.
    One of the expressed concerns at these meetings from tribal 
irrigators is the inability to get water through their systems, 
whether it is head gate issues or maintenance issues, they just 
can't get the water when they need it during the summer months.
    That inability to get water and also I will tell you our 
experience in my program with lining open canals is that it 
removes seepage or reduces seepage and we see upwards of 30 
percent more water being delivered to fields as a result of 
that.
    In terms of this project and developing the local share of 
funding, it is important for Wyoming to be able to match those 
funds. We have had to curtail or reduce projects in size 
because there is not a local share available to match our State 
funds.
    We certainly encourage you to support this bill. I can tell 
you that when irrigators cannot get their water in the spring 
or the summer months, their crops do not flourish and as a 
result, there is a significant impact on the reservation.
    I would stand for questions, Mr. Chairman.
    [The prepared statement of Mr. LaBonde follows:]

  Prepared Statement of Harry C. LaBonde Jr., Director, Wyoming Water 
                         Development Commission

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Chairman. Thank you very much, Mr. LaBonde.
    Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.
    Before we get started, I want to give a special warm 
welcome to a group of students from Hardin, Montana, from the 
Crow and Northern Cheyenne Tribes as well. It is good to have 
you here watching your government in action. Thanks for being 
here.
    I have a question for Councilman Headdress. Again, it is 
great to have you here and to have Montana represented so 
strongly, here on the dais as well as in the crowd. Thanks for 
taking the time to come here.
    I am proud to be a co-sponsor of the IRRIGATE Act. I want 
to express my support additionally for funding rural water 
projects at Fort Peck, at Rocky Boy and other BOR projects in 
addition to the projects included in this bill.
    I look forward to working with my colleagues on this 
Committee to move forward on these important projects for 
Indian country and for the State of Montana.
    Councilman Headdress, I was struck by a comment you made in 
your testimony. You mentioned the total backlog of deferred 
maintenance on the Fort Peck irrigation system is $12.7 
million.
    Mr. Headdress. Yes, sir.
    Senator Daines. How quickly do you expect that number to 
increase if we continue to delay maintaining this project?
    Mr. Headdress. Right now, the actual deferred maintenance 
cost is closer to $16 million. The best estimate we had was 
from the BIA's 2014 assessment. I would say those costs have 
increased by at least $4 million.
    Senator Daines. Could you elaborate on the importance of 
agriculture on the Fort Peck Reservation and where it ranks in 
terms of industries for your communities?
    Mr. Headdress. At the present time, agriculture is the 
primary industry for both the tribes and many of our members. 
Even in the years when we have oil and gas, the income from 
farming and grazing leases is between 30 and 50 percent. Other 
revenue is in the tribal budget. When oil and gas income is 
low, agriculture is even more important.
    While I cannot say exactly the percentage of families on 
the reservation supported by agriculture, I think it is fair to 
say that is likely close to 30 percent of the families.
    Senator Daines. It is Montana's number one industry, a $5 
billion industry across our State.
    Mr. Headdress. Yes, sir.
    Senator Daines. How would this project benefit the 
viability of agriculture for the tribes at Fort Peck?
    Mr. Headdress. The project would allow us to put our lands 
to better use and make sure we are able to productively use our 
farm lands. This will greatly help us to efficiently use our 
water resources also.
    Senator Daines. Thank you, Councilman Headdress.
    Secretary Washburn, as we look to fund these essential 
projects, we also must be aware that we cannot keep adding to 
the national debt which is $18 trillion. Today, the CBO came 
out with their latest projections that we will be at $25-26 
trillion over the course of the next ten years, with $5.6 
trillion of interest over the next ten years on the debt alone. 
Those are probably some pretty conservative interest rates.
    In your view, what are some ways we can find savings in the 
BIA budget or the Department of Interior, more generally, to 
fund these irrigation projects and other high priority items 
for Indian country?
    Mr. Washburn. Let me not rate my colleagues in other parts 
of the Department of Interior. I wouldn't be welcome if I 
started offering up other peoples' budget.
    Senator Daines. We will welcome you back, that is all 
right.
    Mr. Washburn. Thank you.
    You raise a really hard question. We have a lot of 
priorities particularly in Indian affairs, all of which we 
cannot possibly meet. This is one of the frustrating things we 
face every day. We don't have all the money we would like to 
accomplish everything we need to do.
    Irrigation projects are not the only place where we have a 
backlog in deferred maintenance, schools, detention centers and 
other areas. That is why these things are so difficult.
    Indeed, many institutions tend to let go of long term 
maintenance type stuff to save money so they can do other 
things. Whenever budgets get tight, that is one of the first 
things people turn to, let us stop taking care of the stuff we 
have now and doing routine maintenance.
    That is a little bit of how we got here. There are some 
other complications to that but it is not easy to find the 
funds to pay these sorts of things. If the Administration has 
concerns, it is largely around those. How do we pay for this?
    Senator Daines. The concern is the continuing delays. The 
price for maintenance keeps going up and we are losing economic 
growth opportunities which create more taxes and so forth and 
for our people in Montana.
    Can I get your commitment that we can work together to find 
the necessary savings? It is never easy, the budget process. I 
understand that but I think we can work to prioritize some of 
these essential items like these irrigation projects.
    I don't want to keep introducing bills over and over and we 
come back and recycle the same testimony. Let us figure out a 
way to get it done.
    Mr. Washburn. We are happy to work with you, Senator, and 
with the leadership of the Committee.
    Senator Daines. I appreciate it. Thank you.
    The Chairman. Thank you, Senator Daines.
    Senator Tester?
    Senator Tester. Thank you, Mr. Chairman.
    I have a few questions for Charles too. It is good to have 
you here.
    Do you know offhand how many acres are under irrigation at 
Fort Peck now?
    Mr. Headdress. I am not sure on that. I will have to find 
out.
    Senator Tester. If we pass this IRRIGATE Act, would you be 
able to add additional acres under your irrigation?
    Mr. Headdress. Yes, we would, Senator Tester. We have 
projects for which we have plans. The bench above Sprole is a 
good potential spot to plant crops like potatoes, certain types 
of potatoes. If we have an irrigation project in that area or 
coming up to it, that would be a great boon to our economy.
    Senator Tester. Let me ask you the same question a little 
differently. Do you have land right now that was irrigated say 
15, 20 or 25 years ago that now the system no longer can 
support?
    Mr. Headdress. Again, I will have to defer that to our 
experts. I am not sure about that but I will find out for you.
    Senator Tester. That would be great.
    Offhand, do you have any tribal members this would impact 
if we were to get this passed?
    Mr. Headdress. If were to get this passed? Could you 
rephrase that question?
    Senator Tester. How many members of your tribe would be 
impacted by a good irrigation system that would work well?
    Mr. Headdress. At least 8,000, sir.
    Senator Tester. You mentioned the department has charged 
some of the irrigation system users to repay construction 
costs, user fees. What impact has that has on the tribe or 
individual landowners and what would forgiving that debt on the 
Fort Peck tribes do to help drive this project forward?
    Mr. Headdress. The debt is a problem for both our members 
and the tribes. I can speak from personal experience. My son 
inherited a fractional interest in trust land sold by the 
irrigation project.
    As soon as he inherited this land, he was hounded by 
aggressive and threatening demand letters saying he had to pay 
the outstanding debt on the project, not on the whole project, 
of course.
    My son is trying to make the payments but when he inherited 
this land, he had no idea he was inheriting a debt. This land 
is lying idle. It is not being irrigated and in production, yet 
he has to pay this levy.
    The debt is also a problem for the tribes. We are trying to 
repurchase a fractionated interest through the Land Buyback 
Program. In order to do this, the tribes have been told that we 
also have to pay the past debt on these lands.
    Forgiving the debt would make a major difference. You might 
recall the claims in the Keepseagle case when non-Indians were 
getting debt forgiveness but Indians were not. Many of those 
neighbors who had debt forgiven got a new chance and are in 
successful business today.
    Senator Tester. Thank you, Charles. Again, thanks for 
making the trek from Montana. We appreciate your testimony.
    Mr. Headdress. It is good to see you. Thank you.
    Senator Tester. Kevin, the bill we are talking about, S. 
438, will benefit Indian irrigation systems by creating a 
dedicated stream of funding for these projects from the 
Reclamation Fund. As I said in my opening comments, the 
IRRIGATE Act originated from a larger bill that used the 
Reclamation Fund also to pay for Indian water rights and rural 
water projects.
    Can you describe the effect of not having a dedicated 
stream of funding on delaying implementation of these water 
settlements and rural water projects, as well as the impact on 
deferred maintenance on these projects?
    Mr. Washburn. Yes, Senator Tester, I can. What happens is 
we have to ask you for the money every year and hope and pray 
that we get it. That is sort of the way it goes. We do these 
long term water rights settlements and we commit to long term 
amounts of money. If that money doesn't come through, then the 
water rights settlements sometimes falls through.
    It is important for us to have some certainty. We have a 
lot of water rights settlements that we have already committed 
to. Frankly, we have a lot of water rights settlements in the 
process that we hope to commit to in the future.
    I will tell you that the drought is affecting us all over 
the west. Drought is serious. I saw an article a couple days 
ago saying the war in Syria was partially responsible for 
drought. We are glad that we are in a country that doesn't go 
to war about these sorts of things but they are very serious 
matters and raise the stakes of these kinds of issues.
    Senator Tester. There is no doubt about that. If we were 
going to finish all the water projects out there right now, 
water settlement projects, how many dollars would that be?
    Mr. Washburn. I can provide that to you. It is in the 
hundreds of millions.
    Senator Tester. It is in the hundreds of millions. I 
wouldn't expect you to know this but there is $30 million in 
the Bureau of Reclamation Fund in this budget to take care of 
those water projects.
    I am saying if we are going to move forward on this stuff, 
it is going to take Congress to act to appropriate some money 
to do it, to be quite frank with you, because we are talking 
about hundreds of millions of dollars, maybe even $1 billion.
    I appreciate the work you have done and the hard decisions 
you have had to make already. There is more to do and I have a 
few more questions around.
    Thanks, Mr. Chairman.
    The Chairman. Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
holding this important hearing.
    I too want to ask Assistant Secretary Washburn a question. 
Thank you for being here.
    I want to ask about the Wapato Project which is on the 
Yakama Nation in central Washington. It is one of the more 
troubled irrigation systems run by the Bureau of Indian 
Affairs.
    According to the GAO study, there is more than $130 million 
in delayed maintenance for that project. Yet, the Wapato 
Project is for area farmers, tribal members. It has been in 
operation for more than 100 years providing for 150,000 acres 
on the Yakama Reservation.
    Some of the water deliveries were halted in the summer 
causing acute economic hardship for many farmers.
    Last year, we had Ruth Jim, who serves on the Yakama Nation 
Tribal Council to testify before the Committee. Councilman Jim 
reported that the supplies of water are increasingly 
unreliable. Part of the problem is leaky and unlined delivery 
canals, less reliability over time, and lack of reliable 
irrigated water is harming fish recovery efforts. We are all 
focused on the efforts for fish recovery.
    I feel the Bureau is being derelict on our trust 
responsibilities to the tribes. What do you think we need to do 
to get this problem addressed now before it gets worse?
    Mr. Washburn. We have a bunch of hardworking folks in our 
irrigation offices at the Bureau. We have something like 400 
employees who work on this every day and care a lot about it.
    I guess I won't own the fact that the BIA alone has been 
derelict; we have all contributed to that. Certainly Congress 
has too. Chairman Barrasso explained this most clearly in a 
previous hearing when he said these projects were supposed to 
be self sustaining and they never were, honestly. That started 
well over 100 years ago. He called it the gap between the 
theory and the reality. It actually is something that has added 
up over time.
    In 2006, GAO said we weren't assessing enough money for the 
users of these systems. We have increased the assessments, 
particularly at Wapato, for example. We think we have probably 
right-sized the assessments, that if everything was up to 
snuff, the assessments would be fine going forward to cover 
O&M.
    The problem is it doesn't pay for 100 years or at least 
many decades of under-funding of those costs. It took us a long 
time to get into this mess and it is not something that we will 
quickly get out of. We need to work on that.
    Senator Cantwell. What are the next steps to address the 
problem?
    Mr. Washburn. The President has added $1.5 million to this 
year's budget request. That raises our budget request from I 
think $12.3 million to the $11-$12 million range. It is not a 
lot of money but it is a start.
    Senator Cantwell. Will some of that money be spent on this 
particular irrigation repair?
    Mr. Washburn. Some of it is for irrigation O&M generally, 
so yes, I would assume a portion of that would go towards 
Wapato. We don't have that many irrigation projects. That is 
both a blessing and a curse because it means there is not wide 
support across Indian country for correcting these problems. 
There is only a handful of tribes that really benefit, so that 
is a challenge for us.
    It is a challenge we definitely need to meet better than we 
have been doing.
    Senator Cantwell. I am glad to hear that some of the 
resources would go to Wapato and certainly want to look at 
addressing shortfall in the future.
    Mr. Washburn. Thank you.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Daines, any additional questions?
    Senator Daines. No.
    The Chairman. Secretary Washburn, your written testimony 
recommends adding personnel to the list of deferred maintenance 
items authorized by this bill. To me, this bill is intended to 
cover repairing structures, not actually increasing 
administrative expenses.
    Some water users have raised concerns with this Committee 
that their fees are used more for administrative costs than for 
actual maintenance. Can you elaborate a bit on the need for the 
additional personnel you are recommending?
    Mr. Washburn. When those ditches are clogged with weeds, it 
is human beings that go and pull those weeds. You have to have 
personnel to do that work. That is basically the bottom line.
    There are lots of other examples like that but maintaining 
all these structures requires human beings. I guess that is why 
I would say personnel are important. Personnel are key. We have 
a lot of hardworking people here but obviously we don't have 
enough of them to do the job.
    The Chairman. Once the bill is enacted, the Bureau is going 
to need to be ready to timely undertake construction and 
maintenance repairs. There are other Federal agencies that 
manage large water infrastructure projects such as the Bureau 
of Reclamation.
    Has the Bureau examined and adopted best practices used by 
other agencies so that it is ready to go for these additional 
responsibilities?
    Mr. Washburn. The bill was only recently introduced, so I 
am not sure we have every plan in place that we need. I will 
tell you if you gave me $770 million today, which is what this 
bill projects, I would not be able to spend $770 million in a 
responsible way.
    However, over time we can. If this bill was enacted, we 
would definitely endeavor to spend that money in an appropriate 
way and put it to good work.
    The Chairman. Ms. Fennell, nine years have passed since the 
GAO issued its report highlighting the shortcomings of Indian 
irrigation systems. The report concluded the Bureau did not 
know to what extent its irrigation projects were capable of 
financially sustaining themselves.
    For example, the Bureau did not know how much it would cost 
to financially sustain each specific irrigation project.
    How could the study by the BIA required by this bill 
address the financial sustainability issues raised by your GAO 
report?
    Ms. Fennell. The study that is contained in the bill 
appears to be looking at the programmatic issues of BIA. We 
think that there might be some opportunities for clarification 
in the bill as to whether funds could be utilized for 
conducting the financial sustainability assessments that we 
recommended in our report.
    We would be very happy to work with your staff in terms of 
any clarification on that.
    The Chairman. Thank you.
    Mr. Cottenoir, in some locations, the Wind River irrigation 
infrastructure is dilapidated, in my opinion, beyond use. You 
would have a better idea than I, but that is certainly the 
report I have had.
    What is the efficiency, in your mind, of the Wind River 
Irrigation Project, the whole project?
    Mr. Cottenoir. I visited with the Bureau of Indian Affairs 
folks and the actual efficiency has not been quantified. They 
base it on similar irrigation projects with similar canals, 
evaporation rate, canal losses and structure losses.
    The estimated efficiency is somewhere between 35 to 45 
percent.
    The Chairman. Is a number that low sustainable, thinking 
about the impact to the system and the users of what seems to 
me like a low efficiency rate?
    Mr. Cottenoir. It is a very low efficiency rate. Right now, 
if nothing is done, that efficiency rate cannot be sustained. 
It can only be decreased. With increased funding and 
rehabilitation of the system, those efficiency rates could be 
raised.
    With the current state of affairs and the current 
maintenance and schedule that BIA has, I don't think even that 
35 percent efficiency rate could be sustained. I think you 
would see that decreasing as time goes on.
    The Chairman. Users pay an annual assessment to operate the 
system and it is only working at 35 percent. Do all users pay 
or only those individuals who receive water a lot must pay?
    Mr. Cottenoir. Everybody that has a water right on the 
reservation pays an assessment. They are charged the assessment 
even though, in some cases, there is an inability to deliver 
water. For some reason, the allottee cannot lease their lands. 
Because of the increasing O&M rate, it makes it not viable for 
an allottee to lease their lands, so that goes unpaid.
    Yes, everybody is assessed that O&M fee, whether they 
receive water or not.
    The Chairman. They end up having to pay, even if they don't 
get any water. If they are not getting any water or if they 
cannot afford to irrigate their land and don't pay the fees, 
what happens to those folks?
    Mr. Cottenoir. In many cases, that O&M rate, the assessment 
rate, accrues over time. Certain individuals are turned over to 
Treasury. In some cases, many of our elderly people and 
allottees are turned over to Treasury and in many cases, their 
social security is attached. It just continues to spiral out of 
control.
    The Chairman. Let me get this clear. They are not actually 
receiving any water because the system itself is dilapidated 
and only working at 35-40 percent. They are not getting any 
water; they are still required to pay and if they don't pay, 
they are turned over to the Treasury Department for collections 
or garnishing of some of the payments that are due to them. Is 
that an accurate assessment of what you are seeing at home?
    Mr. Cottenoir. Yes, Senator Barrasso. In many cases, that 
is the case. I also stated in many cases, the increasing on 
them just makes it not viable for them to lease their land. If 
they don't lease their land, they cannot pay the O&M.
    The Chairman. I have one last question, Mr. Cottenoir. In 
addition to the efforts of the Wyoming State and the tribal 
governments to address the irrigation problems, the two tribes 
on the reservation are also encouraging users to perhaps form a 
water association or water associations.
    How would this bill empower the tribes or the local water 
user associations to improve the Indian irrigation system?
    Mr. Cottenoir. Forming the water association throws the 
responsibility to operate and maintain onto the actual water 
users who know what they need and how to do it. If the money 
comes to the tribes and we continue to form these associations, 
if we do 638, the program, then it would be our responsibility 
to take care of that.
    We are the ones who know how to do it. We are the ones who 
have proven we have the ability to do that along with our 
partnership we formed with the Wyoming Water Development 
Commission and the State of Wyoming.
    The Chairman. Thank you, Mr. Cottenoir.
    Mr. LaBonde, I will get to you in a couple seconds. I 
wanted to go to a second round first. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    We are going to go back to you, Kevin. Nobody knows trust 
responsibility better than you. I mean that with the highest 
regard. We have heard about the department imposing fees and 
construction repayments on Indian irrigation system uses. Can 
you talk about whether or not these fees are appropriate for 
tribal trust lands?
    Mr. Washburn. I think absolutely. We certainly have to 
charge all the users on the system to the extent it is 
appropriate to do so. I think our highest responsibility for 
these systems--this work isn't formed by the trust 
responsibilities and that is our highest responsibility, but 
some of them do charge the Indian lands. I think they won't 
work unless we assess some of the tribal lands as well.
    To make these things work economically, we have to do that. 
Again, many of these were supposed to be self-sustaining when 
originally envisioned. Our policies have changed dramatically 
towards Indian tribes and Indian people since these things were 
first authorized.
    We have to go with the assumptions that were underway when 
they were authorized, which was that they ultimately be self-
sustaining. We have to charge the users, whether they are non-
Indian irrigators or Indian and tribal irrigators.
    Senator Tester. These dollars would stay in that 
reservation or moved to different reservations?
    Mr. Washburn. They generally stay in that reservation. They 
get assessed and they go to the Treasury, but they get directed 
back to that reservation for operation and maintenance of the 
system.
    Senator Tester. As a matter of fact, are there 
administrative fees cut off those dollars when they flow to the 
Treasury and then back?
    Mr. Washburn. You mean does the Treasury take a cut or 
something like that?
    Senator Tester. Or does your department take a cut?
    Mr. Washburn. I don't know but we can certainly get you 
that information.
    Senator Tester. Okay.
    I have a question for Harry. Can you describe the condition 
of the Wind River irrigation system, I hope you haven't asked 
this already, Mr. Chairman, relative to other irrigation 
systems in Wyoming? Can you describe the condition of Wind 
River versus other irrigation systems?
    Mr. LaBonde. Senator Tester, it is one of the systems in 
poorer condition across the State of Wyoming. With other 
districts, I see active programs to upgrade the system. My 
agency assists with that but they are assessing the irrigators 
for a portion of those costs.
    Senator Tester. I think it is great you have been able to 
fund the projects at Wind River. There is no doubt about that. 
I am curious if the Commission considers the Wind River 
irrigation system at the same level or priority as other 
irrigation systems in the State when you talk about funding 
decisions?
    Mr. LaBonde. Most definitely. We consider all of those 
applicants equally. I am not aware that we have turned down an 
application from the Wind River Indian Reservation.
    Senator Tester. I am going back to you, Secretary Washburn. 
The bill, as drafted, creates authorization for the department 
to take money from reclamation funds each year and apply those 
funds to irrigation projects.
    Correct me if I am wrong, but funding maintenance for those 
irrigation systems is currently authorized, is that correct?
    Mr. Washburn. Yes, Senator. There certainly are 
authorizations in place.
    Senator Tester. That is the right answer.
    Mr. Washburn. It is about appropriations.
    Senator Tester. That is my next question. As we move 
forward on this bill, would we have to make this funding 
mandatory to make sure the IRRIGATE Act is effective?
    Mr. Washburn. When you start to talk about mandatory 
funding, that is kind of a term of art in the budget context. I 
am not sure we, ordinary citizens, intend what mandatory means 
in that context, sort of the OMB context.
    The Administration has asked Congress to provide mandatory 
funding for contract support costs but that means we don't 
appropriate it every year. It comes out of the mandatory side 
of the budget.
    No, I don't think you have to make this funding mandatory 
to make it happen, but we would need some sort of assured 
source of funding to make it happen.
    Senator Tester. I want to thank everyone who testified 
today. I very much appreciate your testimony. I think this is a 
real important issue for Indian country. Moving forward, 
hopefully we can come up with some solutions and get some 
problems solved.
    Thank you all.
    The Chairman. Thank you, Senator Tester.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    I wanted to follow up with Ms. Fennell because obviously we 
have the Act before us but do you think there are other things 
we need to do to tackle this problem? Do you think there are 
administrative things within the way the projects are 
prioritized or administered?
    Ms. Fennell. The Senate bill that is before us could help 
address a number of the issues we raised in our 2006 report. We 
have not had an opportunity to further evaluate the state of 
the irrigation projects since 2006. We stand ready to assist 
the Committee with any additional work that may be needed.
    There are probably some longer term issues that would be 
important to address going forward in terms of looking at these 
irrigation projects, some of which date back to the late 1800s 
or early 1900s, and to think about whether or not there are 
questions about modernizing these projects given the scarcity 
of water and the advanced technologies that currently exist.
    In terms of the bill itself, we do think it would largely 
address a lot of the issues we did raise back in 2006.
    Senator Cantwell. Did you discuss anything about climate 
change impacts on water in your report?
    Ms. Fennell. Not specifically in that report. We did visit 
9 of the 16 projects. We identified the types of issues we saw 
and the state of the projects at that time. We have not 
followed up since that particular time.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Mr. LaBonde, thank you for being here and testifying. A 
number of the comments you made fit completely with what I 
heard as well when we had field hearings in 2011.
    Your written testimony describes numerous projects you have 
worked on with the tribes on the reservation. State 
contributions have assisted in improving portions of the 
irrigation systems.
    Your testimony further noted there is great need for 
significant rehabilitation and upgrade. How big of an impact 
would rehabilitation and upgrade really have on the Wind River 
area and local communities, if it were completed, in terms of 
the economy, economic opportunities, jobs and those sorts of 
things?
    Mr. LaBonde. The Wind River Indian Reservation I would 
characterize as an agricultural operation raising grass, hay 
and alfalfa hay to support ranching operations. If the water is 
not available or if the water is in the creek or the rivers and 
you cannot get it down the ditch, basically you don't have a 
hay crop. That has a significant impact.
    I don't have any figures to offer to you but I can say that 
when ranching operations don't have water, they suffer 
significantly. As I said earlier in my testimony, I have heard 
that from Indian irrigators at the Select Tribal Relations 
Committee meetings.
    The Chairman. Your written testimony noted that a 2008 
engineering study found excessive water seepage from the Wind 
River Irrigation Project. I think you mentioned lining the 
canals could result in upwards of 30 percent more water 
reaching the crops.
    Senator Tester asked how you would compare the conditions 
at the Wind River Irrigation Project with neighboring, non-
tribal irrigation systems you have seen around the State.
    Can you describe for all of us and for the record what sort 
of differences there are and some of the things you have said, 
that this is one of the worse systems in terms of the needs?
    Mr. LaBonde. Some of the observations I would offer are in 
terms of the structures, basically concrete structures, you see 
a picture there of a newer structure. When you look at 
structures on the reservation, you find significantly 
deteriorated concrete, even to the point where the structures 
look like they may fail totally.
    With other systems, you see ditch banks or canals that are 
maintained, weed burning, weed growth, trees that are removed 
so that water can flow unimpeded. Also in systems around the 
State that we funded, we are also upgrading the technology so a 
lot of the control gates are actually operated from a remote 
site or from the irrigation district's office. That is a labor 
saving mechanism so that you don't have to dispatch somebody 
out to adjust a gate.
    All of those things were observed in some of the other 
systems, non-tribal systems.
    The Chairman. Mr. Cottenoir, I don't know if you can do 
this estimation but I wondered if you could estimate how many 
acres are currently not being farmed because of the situation 
and needs, that could be brought back into production if the 
system was operating efficiently?
    We heard from Mr. Headdress you are handling an area of 2 
million acres, larger than the size of Rhode Island. I am 
trying to get it into context.
    Mr. Cottenoir. I don't have an accurate figure for you but 
we are currently doing a study to assess all the irrigated 
acres, all the acres that aren't currently being irrigated, and 
the reason for that. We should have that completed by the end 
of the year. We should have a very accurate accounting of the 
exact number of acres out of production because of no water.
    The Chairman. I want to thank all of you. I want to remind 
the witnesses your full written testimony will be made a part 
of the official hearing record.
    Just to let you know, some of the members who may not have 
been here today will be submitting written and follow-up 
questions. The record for this hearing will remain open for two 
weeks.
    I want to thank each and every one of you for your time and 
your testimony today.
    This hearing is adjourned.
    [Whereupon, at 3:49 p.m., the Committee was adjourned.]
                            A P P E N D I X

     Prepared Statement of the Colorado River Indian Tribes (CRIT)
    The Colorado River Indian Tribes (CRIT) greatly appreciates the 
opportunity to submit this written testimony for the Senate Indian 
Affairs Committee hearing on Chairman Barrasso's pending legislation, 
S. 438, Irrigation Rehabilitation and Renovation for Indian Tribal 
Governments and Their Economies Act.
    CRIT appreciates the Chairman's efforts to focus Congressional 
attention on unaddressed capital finance needs for Indian Country 
infrastructure. The Federal obligation to resolve the deferred 
maintenance and replacement needs on the Indian irrigation projects is 
especially strong. These projects are often the backbone of the economy 
for rural Indian reservations, which is the case for the Colorado River 
Indian Reservation.
    Nearly a decade ago the General Accounting Office (GAO) presented a 
stark account of the crippling deferred maintenance backlog at the 
Colorado River Irrigation Project (CRIP) and the other Bureau of Indian 
Affairs (BIA) operated irrigation projects. Indian Irrigation Projects: 
Numerous Issues Need to Be Addressed to Improve Project Management and 
Financial Sustainability (GAO-06-314) (February 2006) (``2006 
Report'').
    CRIT applauds the Committee for securing an updated report from the 
General Accounting Office (GAO) on whether the BIA is addressing 
maintenance backlogs at the irrigation projects. Indian Irrigation 
Projects: Deferred Maintenance and Financial Sustainability Issues 
Remain Unresolved (GAO-15-453-T) (March 4, 2015) (``2015 Report'').
    The 2015 Report reiterates several key insights on addressing the 
deferred maintenance backlog and also reaffirms that the overall scale 
of the deferred maintenance problem on BIA-managed irrigation systems 
still exceeds $500 million dollars--even using the BIA's own figures.
    CRIT recognizes that the GAO has not verified this BIA-supplied 
information on either an overall or project-by-project basis. CRIT is, 
nevertheless, astonished and greatly concerned to read in the 2015 
Report that the BIA is reporting an ``updated'' maintenance backlog at 
CRIP that is an eight-fold decrease from the BIA's previous cost 
estimate--the CRIP maintenance backlog cost in the 2006 Report is 
$134,758,664, as compared to a figure of approximately $17,000,000 in 
the 2015 Report. No major maintenance or repairs have occurred in the 
intervening years to account for this stunning reduction in cost 
estimate.
    One of the GAO's key recommendations for addressing the deferred 
maintenance backlog is on the need to base plans for remediation on 
reliable information. As the GAO explained in the 2006 Report: 
``Information on financial sustainability, along with accurate deferred 
maintenance information, are both critical pieces of information needed 
to have a debate on the long-term direction of BIA's irrigation 
program. Once this information is available, the Congress and 
interested parties will be able to address how the deferred maintenance 
will be funded (and otherwise implemented).''
    Contrary to the $17 million figure the BIA reportedly provided to 
the GAO, the evidence is overwhelming that the BIA's 2006 remediation 
cost estimate of $134,758,664 reflects the actual price tag for 
adequate CRIP remediation. (It is important to emphasize that the 2006 
figure more closely reflects the correct scale of the cost for 
addressing the CRIP deferred remediation backlog; CRIT was not 
provided, and consequently has not reviewed, either the 2006 or 2015 
BIA cost estimates.)
    The attached document provides an overview of the technical and 
financial basis for CRIT's conclusion that the cost of addressing the 
remediation backlog at CRIP is at least several tens of millions of 
dollars more than the BIA's present estimate, and certainly the cost 
remains well over $100 million.
    CRIT would be pleased to answer any questions and/or provide 
additional information to the Committee and/or the GAO on this 
testimony, including the details in the attached Summary and Tables on 
Colorado River Irrigation Project--Deferred Remediation Costs. Devin 
Rhinerson will serve as CRIT's primary point of contact for answering 
any questions or supplying any additional information requested by the 
Chairman, Ranking Member, or any other SCIA members.
    In closing, CRIT again commends the Chairman for his decision to 
hold this hearing and for his attention to addressing the critical need 
for infrastructure investment in Indian Country.
    Attachment
Summary Details and Tables on Colorado River Irrigation Project 
        (CRIP)--Deferred Remediation Costs
    The GAO has consistently advised Congress that well-managed and 
adequate irrigation remediation projects require accurate, reliable, 
and up-to-date information on irrigation project facilities in need of 
rehabilitation or replacement. Based on this recommendation, the BIA 
commissioned HKM to conduct an irrigation condition assessment on CRIP, 
which assessment was completed in 2011. CRIT Project, Engineering 
Evaluation and Condition Assessment, CRIP (April 2011) (``HKM 
Report'').
    The HKM Report strongly suggests that the CRIP remediation backlog 
cost can be addressed for less than $20 million. For example, the HKM 
Report states that ``[a] summary of the estimated cost for remediating 
the identified deficiencies of the Colorado River Irrigation Project 
infrastructure is provided in table 5.''Table 5 of the HKM Report 
(``HKM Table 5'') is titled ``Summary of Remediation and Replacement 
Costs'' and shows a total of$18,451,022for ``rehabilitation.''
    There are at least three (3) reasons the HKM Table 5 cannot --or, 
at least should not-- be construed as a reliable estimated of the 
deferred maintenance costs that must be address to complete an adequate 
CRIP remediation, as follows:

        1.  HKM Table 5 ($18,451,022) is based almost entirely on 
        estimated costs for rehabilitating facilities while costs based 
        on replacing CRIP features are systematically omitted, even 
        features where the HKM Report indicates a compelling need for 
        replacement.

          a.  Anticipated remediation costs and timeframes are rendered 
        inaccurate when facilities that are in need of replacement are 
        incorrectly classified as needing only refurbishing and 
        rehabilitation. For example, the HKM Report indicates that Ramp 
        Flume ``1WR9'' can be rehabilitated. Nevertheless, photographs 
        in the HKM Report reveal that \1/4\ to \1/3\ of the Ramp Flume 
        is missing, making it highly unlikely that this CRIP feature 
        can be adequately remediated by simply rehabilitating the flume 
        at an estimated cost of $30,338.09. In fact, adequate 
        remediation of the Ramp Flume will require its replacement at 
        four times the cost of the (highly-questionable) rehabilitation 
        cost estimate.

          b.  The HKM Report is a budget level study, which is a rough 
        estimate of the cost to perform the described work. The Bureau 
        of Reclamation (BoR) Directives and Standards (FAC 09-01) 
        recommend the use of a contingency factor of twenty percent (20 
        percent) to twenty-five percent (25 percent) for this level of 
        study. The HKM Report uses a fifteen percent (15 percent) 
        contingency factor for structure rehabilitation cost estimates 
        and 10 percent factor for canal liner rehabilitation.

          c.  The cost of replacing the eleven key canal and lateral 
        structures rated by HKM as ``CMDM critical and serious'' that 
        were in need of replacement, in addition to the two such 
        structures already marked for replacement by HKM, is 
        $8,764,378, based on the replacement cost data from the HKM 
        Report. The total adjusted cost is $9,465,528 after applying 
        the appropriate contingency factor. Cost adjustments are 
        identified in CRIT Table 2 and reflected on Row #1 of CRIT 
        Table 1.

          d.  CRIT Table 1 shows that the remediation cost of the items 
        included on HKM Table 5 ($18,451,022) is more accurately a 
        range between $30,064,091 and $61,093,416. The adjusted 
        remediation costs of these items is presented as a range, 
        between $30,064,091 to $61,093,416, because the small sample 
        size used by HKM to develop its rehabilitation/replacement 
        costs for the Structures -Remaining Laterals category in the 
        HKM Report and Canal Liner Rehabilitation creates uncertainty 
        as to whether to use replacement or rehabilitation as the 
        anticipated remediation cost and also for gauging how much of 
        the existing canal lining should be replaced. These estimates 
        are further adjusted by applying the appropriate contingency 
        factor of 25 percent. These adjustments to HKM's cost estimates 
        are reflected on Row #2 of CRIT Table 1.

          e.  The canal lining remediation cost range based on 10 
        percent to 25 percent of the cost of replacing some portion of 
        the sections of canal lining rated by HKM as C&ODM serious for 
        canal liner rehabilitation was estimated to be between 
        $5,338,764 and $13,346,908 using cost data from the HKM Report 
        for canal lining replacement. The total adjusted cost range is 
        $12,762,714 to $21,499,599 after applying the appropriate 
        contingency factor. The cost adjustment is shown on Row #4 of 
        CRIT Table 1.

          f.  Costs were only included in the HKM Report for the safety 
        ladder replacement, but not for installing new safety escape 
        ladders to meet BoR standards. HKM acknowledged that escape 
        ladders were spaced for 750 feet to one-half mile apart and 
        that many of the installed ladders had been destroyed by canal 
        maintenance activities. BoR standards call for escape ladders 
        to be installed at 750-foot intervals on each side of the canal 
        or lateral. Safety ladders are installed on alternating sides 
        of the canal or lateral every 375 feet. Based on BoR standards, 
        1,046 safety ladders will be required in the currently lined 
        sections of the Project at a cost of $744,235, using the HKM 
        cost data. HKM included $133,097 for escape ladders which, when 
        adjusted for the appropriate contingency factor, is $145,196. 
        The adjustments to estimated costs are shown on Row #6 of CRIT 
        Table 1. An additional $599,039 will be required to meet BoR 
        standards for safety escape ladders. Additional ladders will be 
        required if the remaining unlined key canals and laterals are 
        lined. See Row #8 of CRIT Table 1.

        2.  There are cost-related factors, such as the cost 
        contingencies and sample size used by HKM that result in 
        inaccurate or at least unreliable cost estimates for items 
        included in HKM Table 5 and also elsewhere in the HKM Report.

        3.  There are key categories of CRIP facilities that are not 
        included in HKM Table 5, even though these omitted features are 
        identified and also documented in the HKM Report as needing 
        remediation, installation, and/or replacement.

          a.  No costs were included in the HKM Report for resurfacing 
        operation and maintenance roads. Yet, consistently throughout 
        the Canal Cleaning/Reshaping Reports and Canal Liner 
        Rehabilitation Reports in Appendix F of the HKM Report, HKM 
        recommended the resurfacing of the maintenance roads. If the 
        O&M roads are resurfaced on both sides of the canals and 
        laterals, there will be 276 miles to be resurfaced, based on 
        the lengths of lined and unlined canals and laterals described 
        in the HKM Report. This cost could be significant addition to 
        the total estimated cost of rehabilitation and replacement of 
        system features.

          b.  The unaddressed cost for resurfacing O&M roads on the 
        Project will be between $8,976,845 and $20,518,502 depending on 
        the widths of the O&M roads and whether one or both sides are 
        resurfaced. CRIT Table 3 shows the cost of resurfacing 14 and 
        16 feet wide O&M roads on one side of the canals and laterals 
        and both sides.

          c.  The unaddressed cost for lining the remaining unlined 
        canals and laterals in the Project is $138,334,934 as shown on 
        CRIT Table 3. (The lining of the unlined canals and laterals 
        will take several years to complete because of the need to keep 
        the system in service and line small segments each year.)

    The BIA's more recent deferred maintenance cost estimate might be 
derived, in whole or in part, from the HKM Report. The details 
summarized above demonstrate the BIA's $17 million cost estimate is 
incorrect and unreliable, even if it is based on the HKM Report. 
Addressing the present CRIP remediation backlog will require tens of 
millions of dollars more that the BIA's present estimate and certainly 
well over $100 million.
    The following tables are attached:
    CRIT Table 1. Comparison of Certain HKM-Identified Remediation 
Items
    CRIT Table 2. Structure Remediation Cost Adjustment for Eleven 
Structures on Key Canals and Laterals
    CRIT Table 3. Estimated Cost of Unaddressed Deficiencies
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    
                                 ______
                                 
 Prepared Statement of Hon. Vernon S. Finley, Tibal Council Chairman, 
     Confederated Salish and Kootenai Tribes of the Flathead Nation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
     Prepared Statement of the Confederated Tribes of the Colville 
                              Reservation
    The Confederated Tribes of the Colville Reservation (``Colville 
Tribes'' or the ``CCT'') appreciates the Committee holding a hearing on 
S.438, the Irrigation Rehabilitation and Renovation for Indian Tribal 
Governments and Their Economies (``IRRIGATE'') Act. The CCT wishes to 
thank Chairman Barrasso and Vice-Chairman Tester for introducing this 
important legislation.
    The CCT fully supports the IRRIGATE Act as a first step in 
providing Indian country with a path to completing long overdue 
irrigation infrastructure. Apart from the Indian irrigation projects 
that have already been authorized, the CCT would ultimately like to see 
a path forward for those tribes that are developing irrigation projects 
to address longstanding needs. The Colville Reservation falls into this 
category. The CCT offers this statement for the record to highlight 
some of the challenges that the CCT and its members continue to face in 
absence of any irrigation infrastructure.
    The Colville Reservation was established by the Executive Order of 
July 2, 1872. At that time, the Colville Reservation consisted of all 
lands within the Washington Territory bounded by the Columbia and 
Okanogan Rivers, extending northward to the U.S.-Canadian border. As 
established by the 1872 Executive Order, the Colville Reservation 
encompassed approximately three million acres.
    During the 1880s, the Colville Tribes came under increasing 
pressure to cede the ``North Half'' of the Colville Reservation, in 
large part because it was rich in minerals. A federal delegation was 
dispatched to the Reservation to seek a cession of the Tribes' lands. 
In 1891, many of the tribes residing on the Colville Reservation 
approved an agreement under which they ceded the North Half to the 
United States. The North Half is approximately 1.5 million acres and is 
bounded on the north by the U.S.-Canadian border, on the east by the 
Columbia River, on the west by the Okanogan River, and on the south is 
separated from the south half of the Colville Reservation by a line 
running parallel to the U.S.-Canadian border located approximately 35 
miles south thereof. With the exception of the northern boundary, both 
the North Half and the present day reservation are surrounded by the 
waters of the Columbia and Okanogan Rivers.
    It is ironic that the Federal Government has never constructed or 
provided any assistance for the CCT to establish an irrigation project 
on the Colville Reservation despite the presence of the Grand Coulee 
Dam on the Colville Reservation. The Grand Coulee Dam and its 
reservoir, Lake Roosevelt, supplies water to commercial farming 
interests in central Washington State. The area of central Washington 
where this farming occurs is referred to as the Columbia Basin. 
Congress established the Columbia Basin Project (CBP) to supply water 
to more than one million acres in this area. The Bureau of Reclamation 
(BOR) administers the CBP.
    According to the BOR, the yearly value of the CBP is $630 million 
in irrigated crops, $950 million in power production, $20 million in 
flood damage prevention, and $50 million in recreation. The project 
itself involves costs that are difficult to determine. The farms that 
receive irrigation water must pay for it, but the payments account for 
only a small fraction of the total cost to the Federal Government. Some 
critics describe the CBP as an example of a federal subsidy to a 
relatively small group of farmers in a place where it would never be 
economically viable under other circumstances.
    In contrast to the CBP, the CCT believes that given the opportunity 
to establish irrigation on the Colville Reservation, it could grow the 
economy not only of the CCT but of the surrounding non-Indian 
communities as well. The CCT has long been interested in developing an 
on-reservation irrigation project. The reasons for this include the 
following:

  <bullet> The Federal Government made promises to the CCT in 
        connection to the construction of the Grand Coulee Dam that the 
        CCT would benefit from the irrigation opportunities the Dam 
        would provide. Although some initial work was conducted, no 
        irrigation infrastructure ever materialized.

  <bullet> The tribes that compose the CCT irrigated lands for 
        agricultural purposes prior to western contact in the Columbia 
        Basin, which is known to our elders as Moses Gardens.

  <bullet> The CCT manages instream water for beneficial public use 
        such as salmon restoration efforts and utilizing irrigation 
        infrastructure would reduce the competition between agriculture 
        and salmon restoration efforts.

  <bullet> The Okanogan River on the western reservation border is 
        critically endangered by off reservation orchard irrigation in 
        the spring and summer. Surface and ground water pumping deplete 
        river water flows and increase the water temperatures. Salmon 
        mortality increases every year. Supplemental irrigation water 
        delivered to the head waters of the Okanogan River from the 
        Columbia River would benefit tribal and non-tribal irrigators 
        and salmon populations.

  <bullet> Global warming and climate change has reduced annual 
        precipitation. The CCT's semi-arid region depends on ground and 
        surface water for domestic and irrigation needs. Our water 
        wells are going dry. Currently there is a moratorium on any 
        additional water services in the town of Nespelem, where the 
        headquarters of the CCT is located. New irrigation 
        infrastructure could replenish water supplies needed for 
        growth.

  <bullet> The U.S. Department of Agriculture, the Farm Service Agency, 
        and the Natural Resources Conservation Service have programs to 
        encourage tribal members with farming related business. The 
        benefits these programs provide, which include grants and 
        loans, are not accessible or feasible to tribes or tribal 
        members without irrigation. Developing new irrigation projects 
        on tribal lands would therefore allow tribal member farmers and 
        ranchers the opportunity to participate in the agricultural 
        economy as do non-Indian businesses on reservation lands.

    The CCT again thanks Chairman Barrasso and Vice-Chairman Tester for 
their leadership on this issue. The future economic growth of the 
Colville Tribes depends on our ability to utilize the water that 
surrounds the Colville Reservation. We look forward to continuing to 
work with the Committee and assisting in moving the IRRIGATE Act 
forward in both the Senate and the House.
                                 ______
                                 
 Prepared Statement of Tsosie Lewis, CEO, Navajo Agricultural Products 
                                Industry
Introduction
    Good afternoon Chairman Barrasso, Vice Chairman Tester, and members 
of the Senate Committee on Indian Affairs. I am Tsosie Lewis and I am 
the Chief Executive Officer of the Navajo Agricultural Products 
Industry (NAPI), an agricultural enterprise chartered under the laws of 
the Navajo Nation (``Nation''). I am pleased to submit this prepared 
statement for the record relating to the Committee's legislative 
hearing on the Irrigation Rehabilitation and Renovation for Indian 
Tribal Governments and Their Economies Act (``IRRIGATE Act,'' S.438).
Background on the Navajo Indian Irrigation Project
    In 1868, the United States Senate ratified a Treaty with the Nation 
which recognized the importance of agriculture to the self-sufficiency 
of the Navajo people.
    In 1962, after years of intense negotiations between the Nation, 
the State of New Mexico, and the United States, Congress authorized the 
Navajo Indian Irrigation Project (``NIIP,'' Pub.L. 87483), to fulfill, 
in part, the United States' treaty obligations to supply water and a 
farming operation for the Nation.
    The plain language of the 1962 Act, as well as its legislative 
history, makes clear the Federal obligation to build an 1 10,630-acre, 
irrigated-farm.
    It was originally estimated that the NIIP would be completed in 
approximately fourteen years, in tandem with a companion project--the 
San Juan-Chama Project. The Nation made valuable concessions in 
exchange for the NIIP, allowing water from the San Juan Basin (to which 
the Nation had valid claims) to be transported to the Rio Grande Basin 
in New Mexico for the substantial benefit of non-Navajos.
    The San Juan-Chama Project was completed in 1976, and the residents 
and businesses of the Rio Grande Basin have been enjoying the benefits 
of the bargain for nearly forty years while the NIIP, whose 
construction began in 1964, is only seventy-five percent complete.
    The 1962 Act authorized $135 million to build the substantial 
physical infrastructure for the NIIP, and in 1970, Congress amended the 
Act to increase the authorized appropriations to $206 million.
    In 2005, the Bureau of Indian Affairs (BIA) indexed this figure to 
2005 dollars and estimated that there might be as much as $229 million 
in funding that could be appropriated without the need for a fresh 
authorization.
NAPI's Operations and Economic Importance
    In April 1970, NAPI was established by the Navajo Nation Council as 
a tribal enterprise to manage and operate the NIIP. The idea behind 
NAPI was to manage the NIIP, create economic opportunities for the 
Navajo people and to build a foundation of commitment, pride, and 
dedication to their Nation.
    Today, NAPI operates a 75,000-acre farm in Farmington, New Mexico, 
generating annual revenues of $223 million to the Nation and San Juan 
County. NAPI and its contractors employ more than 425 Navajo people in 
the Four Corners Area, and purchases tens of millions of dollars in 
goods and services both locally and across the Nation.
    In its operations, NAPI has stressed the use of state-of-the-art 
technology and environmentallyfriendly practices. Its agribusiness 
features state-of-the-art farming equipment, including hightech radio 
control, and a computerized center-pivot irrigation system that reduces 
operational costs and efficiently manages water resources.
    NAPI produces premier ``Navajo Pride'' brand agricultural products, 
including alfalfa, corn, feed, wheat and small grains, potatoes, and 
pinto beans. NAPI also operates a flour mill and leases land for cattle 
grazing, as well as for specialty crops.
    Our products have earned the distinction of being ``New Mexico 
Grown'' by the New Mexico Department of Agriculture.
    NAPI's operations are manifested in the international arena as 
well. In 2006, thanks in large measure to then-Congressman Tom Udall, a 
NAPI delegation travelled to Cuba and entered an executive trade 
agreement to sell to that country a variety of NAPI products.
    While the Bureau of Reclamation, a contractor to the BIA, is 
responsible for the planning, design, and construction of the NIIP, the 
BIA has the sole responsibility, including funding requirements, to 
complete the NIIP.
    Through its Operation & Maintenance Department, NAPI manages the 
operation and maintenance of the NIIP through a contract entered into 
pursuant to the Indian Self-Determination and Education Assistance Act. 
NAPI also manages Operations and Maintenance (O&M), On-Farm Development 
(OFD), and an Agricultural Testing Research Laboratory.
NIIP Funding Inadequacies
    Annual funding for the NIIP construction was approximately $26 
million per year during the Clinton Administration and $14 million 
during the Bush Administration. Beginning in fiscal year 2009, the 
annual budget request and consequent funding level for the NIIP has 
been a paltry $3 million. The fiscal year 2016 budget request proposes 
$3.4 million for the NIIP.
    Despite the 1962 Act, federal funding to complete the final three 
11,000 acre blocks of the NIIP is wholly inadequate. In addition to 
funds for new construction, the unavailability of O&M funding is 
resulting in the gradual deterioration of existing infrastructure by 
creating a large deferred maintenance backlog. As a result, NAPI and 
the Nation have been forced to work with the U.S. Department of the 
Interior and the Congress to re-program construction funding to the O&M 
account.
    The BIA Irrigation O&M account nationally receives approximately 
$11 million annually and is used primarily for court-mandated payments, 
statutory requirements, and water storage costs. Currently, more than 
one-third of the $3.4 million NIIP O&M funding pays for electricity for 
pumping.
    NAPI has made significant economic contributions despite the fact 
that the NIIP is only threequarters complete. An economic analysis 
recently issued by Compass Lexecon shows that the federal failure to 
complete the NIIP has cost the Nation billions of dollars in lost 
revenue and untold economic opportunities that will not return.
The Irrigation Rehabilitation and Renovation for Indian Tribal 
        Governments and Their Economies Act (S. 438)
    On February 10, 2015, Chairman Barrasso (R-WY) introduced the 
IRRIGATE Act (S. 438), establishing an Indian Irrigation Fund in the 
Treasury of the United States.
    The bill directs the Treasury Secretary to transfer $35 million 
annually into the Indian Irrigation Fund from the existing Reclamation 
Fund through fiscal year 2026. These funds are to ``carry out 
maintenance, repair, and replacement activities'' on Indian irrigation 
projects and gives priority to Indian irrigation projects that have not 
been funded for the last fifteen years.
    In addition, S. 438 directs the Interior Secretary to consult with 
tribal governments and conduct a study that evaluates options for 
improving programmatic, project management, and performance of 
irrigation projects managed and operated by the BIA.
    We believe the NIIP might satisfy the eligibility criteria provided 
in S.438. Should broader legislation be considered similar to the 
``Authorized Rural Water Projects Act'' (S. 715) introduced by then-
Sen. Max Baucus, we also believe the NIIP would be eligible for the 
funding authorized in that legislation.
    In the meantime, NAPI strongly supports S.438 and urges the 
Committee to expedite consideration of the bill in the weeks ahead. 
Further, we wish to thank Chairman Barrasso and Vice Chairman Tester 
for their leadership on this important matter.
Conclusion
    The history of federal funding and support of the NIIP and related 
activities reveals that partial and delayed funding has resulted and 
continues to result in delayed or derailed economic opportunities, job 
creation, and chronic problems in maintaining physical infrastructure 
and irrigation equipment.
    Thank you for providing me the opportunity to submit this statement 
for the record, and I stand ready to assist the Committee in any way I 
can.
                                 ______
                                 
   Prepared Statement of the Chippewa Cree Tribe of the Rocky Boy's 
                              Reservation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Prepared Statement of Hon. Clement J. Frost, Chairman, Southern Ute 
                              Indian Tribe
    Chairman Barrasso, Vice-Chairman Tester and members of the 
Committee, thank you for your attention to Indian irrigation projects 
and for holding the above-referenced hearing.
    On behalf of the Southern Ute Indian Tribe (``Tribe'') and the 
Southern Ute Indian Tribal Council, I am pleased to submit this 
prepared statement for the record and to register the Tribe's strong 
support for S 438, the Irrigation Rehabilitation and Renovation for 
Indian Tribal Governments and Their Economies (IRRIGATE) Act. The 
Southern Ute Indian Tribe has a long-standing and continuing interest 
in working with Congress to address the problems of failing irrigation 
infrastructure in Indian Country. The Tribe remains greatly interested 
in stopping and reversing the decades-long deterioration of Indian 
irrigation projects and firmly believes that the passage of S.438 would 
be an important first step in doing so.
    The Tribe is heartened that the Congress continues to deliberate 
the best method for the United States to meet its obligation to work 
with tribes to resolve an issue of great importance for many tribes. 
Our Tribe has a particular interest in this legislation because the 
Pine River Indian Irrigation Project (PRIIP) on the Southern Ute Indian 
Reservation has suffered many decades of neglect and mismanagement by 
the Bureau of Indian Affairs (BIA). These years of ignoring the needs 
of the PRIIP and its users, both Indian (85 percent of the project's 
land base) and non-Indian (15 percent) residents of the Reservation, 
have resulted in a rehabilitation and maintenance backlog estimated at 
up to $60 million.
    The PRIIP has been an important part of the economy and culture of 
the local community since the late 1800s. Its continued deterioration 
through the decades has caused economic hardship for all of its users, 
both tribal members and non-Indians. The project long ago reached a 
point where conditions created a disincentive for aggressively 
practicing agriculture. Now, as the Tribe pursues greater efforts to 
maintain a diversified economy, the state of the PRIIP continues to be 
a major impediment to economic progress.
    In spite of intermittent efforts by the BIA, the disrepair of the 
PRIIP system has still not been adequately evaluated and catalogued. 
Nonetheless, previous analysis shows the increasingly dilapidated state 
of the project:

  <bullet> only an estimated 15 percent of the project's 175 miles of 
        canals can be considered in good condition;

  <bullet> some of the project's major diversion structures date to the 
        1930s and have had no major rehabilitation or improvements 
        since the 1960s;

  <bullet> an estimated 40 percent of the project's irrigable acreage 
        is not being irrigated, and a significant amount of that simply 
        cannot be irrigated given the current state of the project;

  <bullet> the project's largest canal, serving over 4,500 acres of 
        Indian and non-Indian land, has breached and experienced 
        multiple major bank slope failures in less than a year and its 
        ability to deliver a full supply of water in the coming season 
        is questionable;

  <bullet> dozens of smaller drop structures constructed pre-1920s have 
        collapsed and simply been abandoned, exacerbating erosion of 
        the system;

  <bullet> many structures have failed due to erosion, poor design, and 
        poor maintenance;

  <bullet> ditches have been abandoned and lands that were previously 
        irrigated have become derelict, requiring costly 
        rehabilitation; and

  <bullet> erosion has created miles of incised canals and ditches 
        where elevated headgates no longer allow for the diversion of 
        water to lands that historically were irrigated.

    The amount of work necessary to bring the system to a minimal level 
of adequate functionality is staggering.
    The Tribe has committed to fixing the PRIIP, and has previously 
worked with this Committee on various legislative efforts specific to 
the PRIIP; but, at this time, we firmly believe the broader tribal 
approach to planning and funding concepts outlined in S.438 are the 
best vehicle for finally getting attention and resources paid to the 
PRIIP.
    We recognize that we are far from the only tribe facing these 
issues and, therefore, we strongly support a broad solution that 
addresses the greater problem across Indian Country. Furthermore, we 
believe that the solution to the problem of irrigation project 
rehabilitation, maintenance, and continued operation must include sound 
planning intended to create long-term agricultural sustainability and 
economic viability. Such an approach must be built on an effective 
partnership between the federal government and the tribes, and S. 438, 
by requiring adequate study, pre-planning, and, most importantly, 
consultation with tribes and irrigation system users, would ensure such 
a partnership is developed before repair work begins.
    Importantly, the IRRIGATE Act would also authorize tribes to assume 
responsibility for repair projects through Indian Self-Determination 
and Education Assistance Act contracts and compacts. Last, while we 
understand that passage of S. 438 would result in large costs to the 
federal government, those costs are spread out over a number of years 
and, unfortunately, given the many decades of the federal government's 
failure to properly maintain Indian irrigation projects, a significant 
federal price tag is simply unavoidable. Unlike other areas of federal 
largesse, however, the funds authorized by S. 438 would finally serve 
those for whom the federal government stands as trustee and, in many 
cases, carry through on solemn treaty promises made to tribes by the 
Federal Government over a century ago.
    Thank you for considering these comments and including them in the 
record. If the Tribe can be of assistance to the Committee as it 
considers this legislation, please do not hesitate to contact me. Last, 
we urge the Committee to favorably report S. 438 and seek swift passage 
by the full Senate.
                                 ______
                                 
        Prepared Statement of the Navajo Housing Authority (NHA)
    The Navajo Housing Authority (NHA) is thankful for this opportunity 
to submit testimony to the United States Senate Committee on Indian 
Affairs for the legislative hearing on, ``S. 710, the Reauthorization 
of the Native American Housing Assistance and Self-Determination Act of 
2015 (NAHASDA).'' We appreciate the Committee's efforts to highlight 
the importance of Indian housing, and to hold a hearing to examine the 
provisions of S. 710. We thank Chairman John Barrasso for introducing 
this bill and we look forward to working with him on its passage.
    The NHA hopes that the Committee will find this testimony both 
informative in understanding our views on the NAHASDA reauthorization, 
and to understand and appreciate the direction that NHA is headed in 
building sustainable and vibrant communities.
Background on NHA and the Navajo Housing Need
    Completed in August 2011, the NHA's housing needs assessment study 
established a baseline housing need on the Navajo Nation of 34,100 new 
homes and another 34,300 existing homes are in need of major repair--
which equates to approximately $9 billion. After holding a series of 
regional workshops and consultations with all 110 Navajo communities 
the total housing need was re-adjusted to 50,445 new homes.
    It was evident that to meet this overwhelmingly unmet housing need 
NHA must break with the status quo and employ new strategies towards an 
integrated and comprehensive approach that maximizes our funding, 
facilitates large-scale housing development while investing and 
building sustainable communities. Furthermore, in 2012, the NHA 
developed a five-year expenditure plan (2013-2017) that set aggressive 
spending goals to bring down the large balance of undisbursed Indian 
Housing Block Grant (IHBG) funds. The organization has been successful 
in meeting its targeted goals, and to-date has spent approximately $329 
million, built 580 new housing units, modernized 964 older housing 
units, and funded the development of 16 group homes and acquisition of 
3 housing units for persons with disabilities since implementing the 
expenditure plan on October 1, 2012. Moreover, we have broken ground 
for the Bluestone Development--our first sustainable master-planned 
community that will provide an additional 165 housing units.
    It is important to note that NHA is more than just a construction 
agency that builds new homes. On a day-to-day basis we cover an array 
of housing services that includes the management and operation of over 
9,200 housing units including 29 office facilities and oversight of an 
additional 2,000 units operated by other local housing providers. NHA 
is also addressing longstanding deferred maintenance of older housing 
units built before NAHASDA that require modernization and retrofits to 
meet Section 504 accessibility requirements for both dwelling and non-
dwelling facilities. Beyond housing, NHA engages in crime prevention 
and safety activities as well as model projects that include, but are 
not limited to: Boys & Girls Club and other youth facilities, women and 
children shelters, college student housing, elderly care homes, 
supportive housing, and other relevant projects.
NHA Views on S. 710
    NAHASDA was created in the spirit of self-determination to provide 
tribes local control and decisionmaking of affordable housing programs 
for their tribal communities. We appreciate the advances in S. 710 that 
enhance local decisionmaking authority and recognize that tribes have 
the sovereign authority to set standards and guidelines within their 
tribal community. More specifically, we support the following changes 
included in S. 710:

        1)  Clarifications relating to program and non-program income;

        2)  Use of tribal prevailing wage and a single environmental 
        review for projects funded by multiple federal agencies;

        3)  Ability for tribes to set maximum rents and homebuyer 
        payments;

        4)  Technical correction on maximum leasehold terms to reflect 
        those included in the Helping Expedite and Advance Responsible 
        Tribal Homeownership Act (HEARTH);

        5)  Open the eligibility of TDHEs to apply for the ICDBG 
        program; and

        6)  Expansion of the Public Assisted Housing Drug Elimination 
        Act of 1990 to include clean up due to methamphetamine damage.

    We feel these changes will help streamline the ability of NHA to 
effectively manage and operate its housing programs and services.
Native American Veterans Supportive Housing
    Veterans housing and supportive services is a major need on the 
Navajo Nation. The 2011 housing survey conducted of 11,500 households 
on the Navajo Nation showed that those homes housed 31,213 families. Of 
those, 2,726 were households that included at least one veteran. As 
noted earlier, many of these homes, nearly 30,000 existing homes, are 
in need of major repair. However, because there is no other housing 
available, often the veteran and their family are forced to live in 
dilapidated housing that could easily be consider substandard or 
inhabitable.
    NHA was pleased that Congress authorized HUD to set aside funds for 
the Native American VASH program through the 2015 ``Cromnibus'' bill. 
NHA is anxious to be a part of the Native American VASH Program. 
However, as we expressed in our comments to HUD, this program can only 
be successful if the design fits with the current NAHASDA programs and 
services. Our main request is that the Native American VASH program 
ultimately employ a true tribal-federal partnership to ensure the 
program will meet the needs of the target population. This would mean 
that the Veterans Administration (VA) would need to consider sub-
contracting with tribal housing programs and other tribal departments 
those additional supportive services for Native veterans. Delivery of 
supportive services to a large population with remote geographic 
locations like the Navajo Nation may create challenges for VA personnel 
to provide timely and comprehensive supportive services.
    Tenant-based rental assistance versus project-based rental 
assistance. The biggest problem with using the tenant based rental 
assistance vouchers on the Navajo Nation is the lack of private or non-
profit housing for renters. Therefore, the Native American VASH 
language should allow rental assistance to be used on housing currently 
included in the housing stock of the tribal housing programs. If 
vouchers could be used on current NHA rental properties, then we can 
set aside a fair number of units for potential VASH renters and build 
more rental units for other families. Currently, NHA relies on using 
our rental vouchers for only Section 8 approved properties off the 
reservation. This solution will not help veterans who wish to stay on 
the reservation close to a family who is helping to support their 
recovery.
    As for project based assistance, NHA is ready today to use the 
project based rental assistance. Our sustainable community master plan 
project will create several integrated communities that will include 
public rental, homeownership coupled with economic development 
opportunities. These master-planned communities will be financed and 
leveraged with federal products and programs, and the project based 
assistance can be an element that would work into the development of 
the master-planned communities. NHA's timeline for this project is 
moving fast, and to be of greatest value the project based assistance 
would need to be available within the next year.
Demonstration Program for Alternative Privatization Authority
    A new demonstration program is being proposed as Title IX of 
NAHASDA. The new program would allow tribes and TDHEs to work with 
investor partners to provide for the housing needs of the tribe. There 
should be an option for tribes or TDHEs to participate with some of 
their funding allocation while maintaining their participation in the 
regular NAHASDA program with the remainder of their block grant funds.
Effect of Undisbursed Block Grant Amounts
    Recently, the Navajo Nation Council passed legislation number CF-7-
15, that expresses the position on NAHASDA reauthorization. In brief, 
the position states that the Navajo Nation supports NAHASDA 
reauthorization, however the Nation expresses opposition to any 
``withholding'' language that does not have an effective date of 2018.
    We appreciate Chairman Barrasso for hearing NHA's and the Navajo 
Nation's concerns, and including in S. 710 an effective date of Jan. 1, 
2018 for any ``withholding'' language. NHA would like to note that we 
have consistently upheld to our commitment to address our undisbursed 
funds. In fact, we have spent a total of $329 million to date since the 
start of our expenditure plan in 2012 and we currently have an 80 
percent expenditure rate--these numbers show both a significant decline 
in unspent IHBG funds and a significant increase in spending IHBG 
funds. Our aggressive five year expenditure plan that started on 
October 1, 2012 will spend down the backlog of undisbursed funds by the 
end of FY 2017. The effective date in S. 710 is in-line with our 
targeted expenditures goals--NHA will have brought down our balance of 
undisbursed IHBG funds before the ``withholding'' language takes 
effect.
    The Committee should be assured that NHA is not carelessly spending 
this money, we have a prudent development strategy to ensure that our 
expenditures are making strategic investments into our Navajo 
communities. We must note that it takes nearly three to five years just 
to build homes on the Navajo reservation. There is considerable 
planning involved just to make housing development a reality.
Conclusion
    NHA was one of the first Indian Housing Authorities to be 
established, and it was the Navajo Nation leadership who gathered with 
other tribal leaders in 1996 to advance NAHASDA's initial passage. We 
were honored to work with a broad coalition of tribes and Congress to 
pass this important piece of legislation. We hope that Congress will 
work to swiftly pass a reauthorization bill that recognizes and honors 
the spirit of self-determination and self-governance. NHA must be clear 
that we cannot support a bill that does not include a 2018 effective 
date for any ``withholding'' language for undisbursed IHBG funds--
Congress should recognize that NHA has gone above and beyond to prove 
to Congress that we are meeting our spending goals and we respectfully 
ask that our request is honored.
    NHA appreciates the opportunity to provide you this written 
testimony for the record, and we would be please to answer any 
questions that the Committee or the Senate may have.
                                 ______
                                 
  Prepared Statement of the Ute Indian Tribe of the Uintah and Ouray 
                              Reservation
    Chairman Barrasso, Vice Chairman Tester, and Members of the 
Committee on Indian Affairs, including Mr. Hatch, Mr. Enzi, and Mr. 
Daines, sponsors of the bill, thank you for the opportunity to testify 
on S. 438, the ``Indian Tribal Energy Development and Self-
Determination Act Amendments of 2011.'' The Ute Indian Tribe is a 
federally recognized Indian tribe and the beneficial owner of the 
Uintah Indian Irrigation Project, which is held in trust by the United 
States Secretary of the Interior. The Uintah Indian Irrigation Project 
is one of the 16 irrigation projects managed by the Bureau of Indian 
Affairs. The Tribe supports S. 438, and requests that the bill include 
the amendments described in the final section of our testimony.
Historical Background of the Ute Indian Tribe of the Uintah and Ouray 
        Reservation
    The Ute Indian Tribe is made up of three Bands, the Uintah, White 
River, and Uncompaghre Bands. The Tribe was organized pursuant to the 
provisions of the Indian Reorganization Act of June 18, 1934 (48 Stat. 
984, as amended). The Tribe's Uintah and Ouray Reservation 
(Reservation) is located in northwestern Utah.
    The Federal Government's allotment policies resulted in substantial 
losses of the Tribe's Reservation lands. The Reservation originally 
included approximately 4.5 million acres. The Tribe now owns about 1 
million acres of trust lands.
The Uintah Indian Irrigation Project
    Utah is the second most arid State in the country. It rains little 
in the summer and, therefore, the only source of water is the winter 
snow melt and the ability to store it. Water management has long been 
recognized early and often by the Federal Government as a necessary 
component of the development of the Tribe's lands, including 
allotments, in the settlement of the Reservation. For example, in his 
annual report for 1905, the Commissioner of Indian Affairs observed of 
the Ute Indians:

         The future of these Indians depends upon a successful 
        irrigation scheme, for without water their lands are valueless, 
        and starvation or extermination will be their fate. The 
        circumstances are such that delay or hesitation will be fatal 
        because all rights to waters in Utah are based on the priority 
        of use.

    Thus, on June 21, 1906, the United States Congress authorized the 
construction of irrigation systems to irrigate ``the allotted lands of 
the Uncompahgre, Uintah, and White River Utes in Utah,'' with ``the 
cost of said entire work to be reimbursed from the proceeds of the sale 
of the lands within the former Uintah Reservation.'' Now known as the 
Uintah Indian Irrigation Project, the Congressional authorization 
provided:

         That such irrigation systems shall be constructed and 
        completed and held and operated, and water therefor 
        appropriated under the laws of the State of Utah, and the title 
        thereto until otherwise provided by law shall be in the 
        Secretary of the Interior in trust for the Indians, and he may 
        sue and be sued in matters relating thereto[.] (34 Stat. 325, 
        375-76) (emphasis added).

    Under this authority, the Bureau of Indian Affairs (BIA) 
constructed a system to irrigate 78,950 acres of allotted land, via an 
extensive system of canals and ditches to convey water from three river 
drainages: the Strawberry-Duchesne, Lake Fork-Yellowstone, and the 
Uinta-Whiterocks rivers.
    Also, in anticipation of the project, the United States, through 
the BIA, made application to the Utah State Engineer in 1905 to 
appropriate water from the State of Utah for the Uintah Indian 
Irrigation Project (prior to the establishment of the Winters Doctrine 
in 1908 of federallyreserved Indian water rights). Some ten to fifteen 
years later, the State issued water right certificates for the lands 
under the Uintah Indian Irrigation Project to the United States, which 
now holds the water rights in trust for the Tribe, allottees, and their 
successors.
    A program was initiated to level, clear, plow, and fence the Indian 
allotments to get them into cultivation. Tribal funds were used for 
this purpose. By 1908, over $330,000 had been spent on the irrigation 
project; although less than $7,000 had been paid to Indian laborers, 
and, out of the 78,950 acres within the irrigation project, about 
25,000 acres had already been sold to non-tribal members. In 1916, of 
37,380 Indian allotted acres, 13,134 acres were irrigated. Construction 
ended in 1922, but no water storage facility was included in the 
project.
    In 1916, the United States initiated litigation in federal district 
court to protect the Ute Tribe's water rights because of increasing 
conflicts between the Ute water users of the Uintah Indian Irrigation 
Project and their non-Indian neighbors over the water allocations in 
the Lake Fork, Yellowstone, Uinta, and Whiterocks Rivers. United States 
v. Cedarview Irrigation Company et al., No. 4427 (D. Utah 1923), and 
United States v. Dry Gulch Irrigation Company et al., No. 4418 (D. Utah 
1923). The Federal District Court determined the quantity and priority 
of Tribal water rights under the Uintah Indian Irrigation Project on 
the Uinta-Whiterocks River Basin and the Lake Fork-Yellowstone River 
Basin.
    The court issued two federal decrees recognizing the Ute Indian 
Tribe's Winters reserved water rights as present-perfected water rights 
in those two Basins with an 1861 priority date, the date of the 
creation of the Uintah Valley reservation (recharacterizing the water 
rights originally filed by the Indian Irrigation Service with the State 
of Utah prior to the 1908 Winters decision). The two Federal Court 
Decrees provided 179,315.07 acre-feet per year for irrigation of 
59,771.69 acres of Tribal allotments within the Project, with a total 
irrigation diversion limit of 3 acre-feet per year per acre, and 
permitted year-round diversion of water for domestic, culinary, and 
stock watering uses. Project lands irrigated by the Duchesne River 
consist of approximately 18,000 acres.
    BIA has responsibility for the management of the Uintah Indian 
Irrigation Project. There have been a century of reports studying the 
problems of the Uintah Indian Irrigation Project. All of them conclude 
that the continuous deferred maintenance of the project and failure to 
construct the required storage facilities that would support irrigation 
through the mid-to-late summer months has significantly impacted the 
ability of the Ute Indians to efficiently farm there.
    In some of the more recent reports, HKM Associates, a tribal 
contractor, issued a report in 1982 and found from a survey of 3,425 
Uintah Indian Irrigation Project irrigation structures showed that 84 
percent were in need of repair or replacement. Then, in 1988, both the 
Tribal engineer and the Department of Interior concluded that $75 
million was needed to repair and rehabilitate the Project.
    In an attempt to address these problems, under the 1992 CUPCA, the 
Secretary retained trust responsibilities to the Ute Tribe and 
allottees of the Project, but turned over the daily operation, 
maintenance, rehabilitation, and construction of the Uintah Indian 
Irrigation Project to a water users' organization. Under the 1992 
CUPCA, the Secretary is required to ``use funds received from 
assessments, carriage agreements, leases, and all other additional 
sources . . . for the Uintah Indian Irrigation Project administration, 
operation, maintenance, rehabilitation, and construction . . . '' 
Section 203(f), CUPCA.
    However, Congress has not provided any funds to the Uintah Indian 
Irrigation Project for these activities--even though over half of the 
landowners under the Project are Indians, who continue to struggle with 
their ability to pay a sufficient level of assessments that could 
support the on-going costs of long-time deferred repair, replacement, 
maintenance, and construction of the Project works and desperately 
required storage facilities.
    Another report issued by BIA in 2008 asserted: ``The Uintah 
Irrigation Project has deferred maintenance needs in excess of $86.1 
million to bring the aging, deteriorated infrastructure up to current 
standards. The majority of our diversion structures lack any safety 
features to keep personnel safe while operating gates and cleaning 
debris for the upstream side of the structures. There is no fencing or 
gates to prevent the general public from getting on any of our 
structures of features.'' \1\
---------------------------------------------------------------------------
    \1\ See U.S. Dept. of Interior, BIA, Western Region, ``Operation 
and Maintenance Guidelines: Uintah Indian Irrigation Project, Uintah 
and Ouray Agency'' (Dec. 23, 2008).
---------------------------------------------------------------------------
    Finally, a General Accounting Office (GAO) report issued in 2006 on 
the Indian Irrigation Projects \2\ stated that the BIA estimated the 
cost for deferred maintenance at its 16 irrigation projects, including 
the Uintah Indian Irrigation Project, at about $850 million for 2005. 
And the BIA, Office of Trust Services, Division of Water and Power, 
issued a Program Review of the Uintah Indian Irrigation Project in 2011 
and found many deficiencies in the BIA Agency's management and 
administration of the Project, resulting in resource mismanagement that 
adversely affecting the Project water users.
---------------------------------------------------------------------------
    \2\ GAO Report to the Chairman, Subcommittee on Interior and 
Related Agencies, Committee on Appropriations, U.S. Senate, ``Indian 
Irrigation Projects: Numerous Issues Need to be Addressed to Improve 
Project Management and Financial Sustainability,'' GAO-060-314 
(February 2006).
---------------------------------------------------------------------------
    Despite Congressional direction, the Tribe has yet to see the 
comprehensive rehabilitation of the Project or the construction of 
storage facilities necessary for the operation of the Project. The Ute 
Tribe's and allottees' treatment by the Federal Government with regard 
to funding for the Uintah Indian Irrigation Project has been 
particularly egregious when one important fact, unique to the Ute 
Indians (and maybe only one other Indian irrigation project) is 
considered: the United States is designated by statute as the trustee 
of the Uintah Indian Irrigation Project, where the Secretary of 
Interior holds the Project in trust for the Indians. Act of June 21, 
1906, 34 Stat. 325, 375-76.
The Need for Tribal Storage
    The need for tribal storage for the Uintah Indian Irrigation 
Project has been clearly and repeatedly documented for over 100 years, 
since the early 20th Century. Indeed, it is well known that irrigation 
cannot be successful in an arid environment without storage. An 
extensive historical record supports the conclusion that the Federal 
government, through both BIA and the Bureau of Reclamation, has long 
recognized the fact that both natural flows and storage are needed to 
make farming under the Project successful.
    The following excerpts briefly highlight the Federal Government's 
acknowledged awareness of its obligation to manage the Project through 
storage facilities:

    U.S. Indian Service (1916): \3\ The ditch-riders ``were powerless 
to overcome the diversion of all the water from Lake Forks and Uintah 
rivers above the headgates of the ditches of this project diverting 
from the lower reaches of these streams.''
---------------------------------------------------------------------------
    \3\ Correspondence from the Dept. of Interior Engineer to H.W. 
Dietz, Superintendent of Irrigation, dated January 20, 1916, regarding 
problems with the Uintah Irrigation Project.
---------------------------------------------------------------------------
    BIA (1938): \4\ ``[T]he Indian Service has not constructed storage 
reservoirs, although storage water would be a valuable asset.''
---------------------------------------------------------------------------
    \4\  U.S. Bureau of Indian Affairs. A Study of Economic Conditions 
on the Uintah Irrigation Project, Utah. Including Recommendations for 
the Adjustment of Irrigation Assessments with Suggestions for Project 
Composition, Rehabilitation and Administration. September, 1938.
---------------------------------------------------------------------------
    BOR (1965): ``This [Uintah Indian Irrigation] project is 
substantially completed with the exception of storage requirements.''
    BOR (1968): \5\ ``Storage regulation for irrigation such as that 
which would be provided by the Uintah Unit . . . is urgently needed.''
---------------------------------------------------------------------------
    \5\ U.S. Bureau of Reclamation. Uintah Unit, Central Utah Project, 
Feasibility Report. May, 1968.
---------------------------------------------------------------------------
    BOR (1975): \6\ ``There is an urgent need for storage facilities to 
regulate the streamflows to match the irrigation demand pattern.''
---------------------------------------------------------------------------
    \6\ U.S. Bureau of Reclamation. Uintah Unit, Central Utah Project, 
Report for Certification of Physical, Economic, and Financial 
Feasibility. April, 1975.
---------------------------------------------------------------------------
    DOI (1977): \7\ ``The Secretary of the Interior has fiduciary 
responsibility for the welfare of the Ute Indian Tribe. The Tribe has 
supported the Bonneville Unit to assure an orderly development of water 
resources for the Tribe through the Central Utah Project. Water for the 
Bonneville Unit is available through agreements made by the United 
States and the Ute Indian Tribe.''
---------------------------------------------------------------------------
    \7\ U.S. Dept. of Interior, Water Projects Review Office, 
Preliminary Information and Data Sheets for Bonneville Unit (Bureau of 
Reclamation, March 15, 1977).
---------------------------------------------------------------------------
    BIA (1978): \8\ ``Water storage has never been provided [to the 
Uintah Indian Irrigation Project]. . . and is greatly needed.''
---------------------------------------------------------------------------
    \8\ U.S. Bureau of Indian Affairs. Statement of Position Water 
Resource Issues Uintah and Ouray Reservation. June, 1978.
---------------------------------------------------------------------------
    BOR (1978): \9\ ``Substantial areas of potentially irrigable Indian 
lands are entirely without a water supply. . . .''
---------------------------------------------------------------------------
    \9\ U.S. Bureau of Reclamation. Uintah Unit, Central Utah Project, 
Definite Plan Report. August, 1978.
---------------------------------------------------------------------------
    BOR (1980): \10\ ``No storage reservoirs were built [for the Uintah 
Indian Irrigation Project], and therefore only a partial supply could 
be furnished.''
---------------------------------------------------------------------------
    \10\ U.S. Bureau of Reclamation. Uintah Unit, Central Utah Project, 
Status Report. June, 1980.
---------------------------------------------------------------------------
    In Title II of CUPCA, Congress provided funds for the Central Utah 
Water Conservancy District (District) to develop alternative, smaller 
storage facilities for the Uintah and Upalco Units, which would serve 
the Tribe's Uintah Indian Irrigation Project. Unfortunately, as 
planning commenced the Tribe soon found they were yet again not 
benefitting. The Tribal allocation for storage in the proposed projects 
was smaller than contemplated under the original Upalco and Uintah 
Units, and would not fulfill the storage needs of the Tribe under the 
Uintah Indian Irrigation Project. By the late 1990s, it became clear 
that the projects as designed were not in the best interest of the 
Tribe. In 1999, the Tribe decided against supporting the replacement 
projects as planned. Although the Tribe withdrew support for these 
particular reservoirs, the Tribe did not give up on its pursuit for 
storage, nor was the obligation of the Federal Government to provide 
storage relieved.
    Less than 9 percent of the irrigation water promised to the Tribe 
was ultimately developed. Compared to the total amount of water 
developed in the Uinta Basin by the CUP, less than 5 percent is 
directly made available to the Tribe.
    Because of these shortages, the Tribe has sought to develop viable, 
environmentally sound storage facility options that will regulate the 
flows of Reservation streams and provide an ample and dependable water 
supply for the Tribe under the Project. Storage, combined with natural 
flow, is the only way the Tribe can fully develop its Reservation lands 
under the Project and put its reserved water rights to use.
Proposed Amendments for S. 438, the IRRIGATE Act
    The Uintah Indian Irrigation Project is in a debilitated state and 
represents a significant hazard to individuals working for the Project 
and distributing the irrigation water and to those irrigating under the 
Project. To ensure that that the IRRIGATE Act fully addresses the 
Federal government's trust responsibility for the Tribe's Uintah Indian 
Irrigation Project and focuses funding on the most pressing issues for 
creating successful Indian irrigation projects, the Tribe requests that 
the following amendments, shown in underline, be included in the bill.
SEC. 201 REPAIR, REPLACEMENT, AND MAINTENANCE OF CERTAIN INDIAN 
        IRRIGATION PROJECTS.
    (a) IN GENERAL.--The Secretary shall establish a program to address 
the deferred maintenance needs of Indian irrigation projects, including 
the construction of storage needs, that--

        (1) Create risks to public or employee safety or natural or 
        cultural resources; and
        (2) Unduly impede the management and efficiency of the Indian 
        irrigation program.
SEC. 202 ELIGIBLE PROJECTS.
    The projects eligible for funding under section 201(b) are the 
Indian irrigation projects in the western United States that, on the 
date of enactment of this Act--

        (1)  are owned by the Federal Government, as listed in the 
        Federal inventory required by Executive Order 13327 (40 U.S.C. 
        121 note; relating to Federal real property asset management); 
        or
        (2)  are held by the Secretary in trust for the Indians 
        pursuant to Congressional authorization of the project; and
        (3)  are managed by the Bureau of Indian Affairs (including 
        projects managed under contracts or compacts pursuant to the 
        Indian Self-Determination and Education Assistance Act (25 
        U.S.C.  450 et seq. or any other statute authorizing any such 
        contract); and
        (4)  have deferred maintenance documented by the Bureau of 
        Indian Affairs.
SEC. 203 REQUIREMENTS AND CONDITIONS.
    (1) programmatic goals to carry out this title that--

        (A)  would enable the completion of repairing, replacing, 
        improving, , or performing maintenance on projects as 
        expeditiously as possible;
        (B)  would provide storage facilities to enable the projects to 
        becomes feasible and profitable by having an adequate water 
        supply;

    (2)  funding prioritization criteria to serve as a methodology for 
distributing funds under this title, that take into account--

        (C)  the extent to which deferred maintenance, or failure to 
        provide storage, poses a threat to the ability of the Bureau of 
        Indian Affairs to carry out the mission of the Bureau of Indian 
        Affairs in operating the project;
        (D)  the extent to which repairing, replacing, improving, or 
        performing maintenance on, or the construction of, a facility 
        or structure will--

          (iv)  assist in protecting natural or cultural resources; and
          (v)  use modern irrigation technologies for the conveyance 
        and distribution of irrigation water that will improve the 
        efficiency of water management and use by a project.
SEC. 206. ALLOCATION AMONG PROJECTS.
    (b) PRIORITY.--In allocating amounts under section 201(b), in 
addition to considering the funding priorities described in section 
203, the Secretary shall give priority to eligible Indian irrigation 
projects serving more than 1 Indian tribe within an Indian reservation 
or required by Congress in the authorizing project language to be held 
by the Secretary in trust for the Indians, and to projects for which 
funding has not been made available during the 15-year period ending on 
the day before the date of enactment of this Act under any other Act of 
Congress that expressly identifies the Indian irrigation project or the 
Indian reservation of the project to address the deferred maintenance, 
repair, or replacement needs and/or storage needs of the Indian 
irrigation project.
                                 ______
                                 
Letter from Hon. Jim Allen, Representative, House District 33, Fremont 
              County and the Wind River Indian Reservation
    Dear Senator Barrasso,
    Thank for sponsoring the IRRIGATE Act. I write today in support of 
this important bill. It will, if passed, provide much needed 
rehabilitation funding for our dilapidated and crumbling irrigation 
delivery canals, ditches and structures on the Wind River Indian 
Reservation of Wyoming. This reservation is home to two tribes, the 
Eastern Shoshone, Northern Arapaho and several non-tribal residents 
totaling approximately 17,000-20,000 people. It is important to note 
that the decay of the irrigation system on this reservation is due to a 
backlog of uncompleted federal maintenance and to shortfalls in 
Congressional funding. This bill will go a long way in bringing this 
aging and decadent system back up to the former standards. By repairing 
the system, precious water will be better utilized, crops will improve, 
our local economy will improve and water will be saved for downstream 
users. Just as importantly, water will be delivered fairly and 
equitably. Everybody wins.
    However, I would caution Congress to designate these irrigation 
rehab funds to be spent on repairing the broken irrigation system, not 
hiring more BIA adminstrators or funding more studies. That has already 
been done and Billings BIA Irrigation staff, the Tribal Water Engineer, 
both Tribal Councils and irrigators know exactly what needs fixed and 
where. This money could be put to good use immediately if this bill 
passes.
    I represent a large portion of the reservation and most of its 
irrigated lands in the Wyoming House of Representatives. I am also on 
the House Agriculture, Public lands and Water committee and the state 
of Wyoming knows well the ancient status of reservation irrigation 
infrastructure and the need for funding. The state does not have enough 
money to adequately fund repairs, but more importantly, the Federal 
Government has a trust responsibility to the tribes and it has fallen 
decades behind in funding irrigation repairs on the reservation. We 
need this bill.
    One last point. Since there are also non-tribal landowner/
irrigators residing on the reservation, it is imperative they are 
counted and heard too in policy development regarding prioritizing 
irrigation rehabilitation projects and timelines. Water is appurtenant 
to the land regardless of tribal membership status.
    Thank you for bringing this very important and beneficial bill. I 
hope it passes.
                                 ______
                                 
 Letter from Fred Tammany, Chairman, Ray Canal Water Users Association
    Dear Senator Barrasso,
    I am writing in response to your proposed legislation, the 
``IRRIGATE'' Act for rehabilitation of the deteriorating irrigation 
systems on Indian Reservations throughout the West. Our water-user's 
group, the Ray Canal Water Users Association, is comprised of two 
hundred seventy-eight (278) members and manages 10,260 acres on the 
Wind River Indian Reservation, home to both the Shoshone and Northern 
Arapaho Tribes.
    As you are aware from your visit with us last summer that was 
hosted by the Tribal Water Engineers Office, our system is close to 
collapse and in desperate need of rehabilitation after years of neglect 
by the controlling BIA. Your legislation would work to correct these 
inadequacies would benefit all users of the Wind River Irrigation 
Project and fulfill the trust responsibilities of the United States.
    The Ray Canal Water Users Association and the Crowheart Water Users 
Group on the Wind River Reservation have demonstrated that prudent 
maintenance, volunteers, and lower overhead costs make considerable 
improvements to the fair and equitable delivery of water to the 
irrigators. With the help of this legislation, our groups would be able 
to capitalize on best-use practices that have developed over the years 
and make a more efficient system that would end up benefiting all 
occupants of the reservation.
    In closing, our Ray Canal Water Users Association looks forward to 
the passage of this legislation and rolling up our sleeves with a ``Get 
`er done'' spirit so that we can all reap the rewards from this act. 
Our only concern is that the funds need to be correctly allocated in 
order to avoid creating more unnecessary administrative positions and 
to avoid paying for studies that have already been completed. There 
have been many studies completed regarding the irrigation situation on 
our reservation, but no action has been taken until now. As water 
users, we are quite familiar with the inadequacies of the system and 
the areas of critical importance in the rehab project; our experience 
should be capitalized upon and could be invaluable to the successful 
economic basis of this project. We also hope that there will not be 
liens or debts assigned to the users as a result of this Act. 
Agriculture has and hopefully always will be an important contributor 
to the gross national product and the world with a little help from our 
friends in Washington D.C.
    This legislation is a last line of hope if our irrigation system is 
to survive. We cannot thank you enough for the concern you have 
demonstrated for our plight, for work towards the opportunity to 
improve our system, and for your contributions to agricultural 
communities, Fremont County, the State of Wyoming, and the United 
States of America.
                                 ______
                                 
 Letter from the Crowheart Bench Water User's Association (CBWUA) and 
            the ``A'' Canal Water User's Association (ACWUA)
    Indian Affairs Committee,
    The Crowheart Bench Water User's Association (CBWUA) and the ``A'' 
Canal Water User's Association (ACWUA) would like to express our 
support for the ``Irrigation Rehabilitation and Renovation for Indian 
Tribal Governments and Their Economies Act'' or the ``IRRIGATE ACT''
    The CBWUA and ACWUA are irrigator managed irrigation systems in the 
Crowheart Unit of the Wind River Reservation. These organizations 
manage their systems, totaling approximately 10,500 acres, through a 
Cooperative Assistance Agreement (CAA) with the Bureau of Indian 
Affairs, directed by an elected board of irrigators. Since the 
inception of these organizations, many positive steps have been taken 
to improve the delivery and overall operation of the BIA irrigation 
systems in the Crowheart area. Dilapidated structures have been 
replaced, miles of canals and laterals have been cleaned, and multiple 
individual farm turnouts have been updated. All of these tasks have 
been completed while maintaining irrigation operations and maintenance 
assessments that are significantly lower than those paid by other units 
that fall under BIA management on the Wind River Unit. Cost savings on 
administration, (board members are on a volunteer basis), low overhead 
(the associations do not own equipment or employ operators, but instead 
hire contractors) and donated labor by irrigators have made this 
arrangement feasible. However, like all the systems on the Wind River 
Unit, the deferred maintenance needs we have inherited are significant. 
We have been benefited in recent years from funding provided through 
legislation spearheaded by the late Craig Thomas and others that was 
administered by the Tribal Water Engineer's office and matched by funds 
provided by the Wyoming Water Development Commission. These funds have 
served to rehabilitate many structures on the Wind River Reservation, 
inc luding two major diversion structures in the Crowheart area. 
Unfortunately, the 7 million dollar amount provided by the Wyoming 
Water Development Commission and the Thomas legislation is far from 
adequate to address the rehabilitation needs of the irrigation 
infrastructure on the Wind River Reservation.
    The ``IRRIGATE ACT'' would provide much needed funding to help 
cover the costs of rehabilitation, enhance safety features, and 
modernize the systems in Crowheart and throughout the reservation. In 
our experience managing our systems, dollars go much further when they 
are put to work on the ground, not to add unnecessary administrative 
positions or purchase very expensive and often inefficient equipment 
and operators. Our systems have been studied extensively, most recently 
in 2006. Studies are a valuable tool to ensure proper allocation of 
funds within a project, however those landowners who pay the operations 
and maintenance assessments and have invested their time and efforts in 
improving their systems as we have in Crowheart should be considered 
authorities on their systems and should not be ignored. As irrigators, 
we would much rather see funds go to work on the ground than on yet 
another study. It is also critical that funds are not provided with 
strings attached, such as liens against the land serviced by the 
systems or debts that are assigned by those who do not own the land.
    In summary, we are encouraged by the opportunities this proposed 
legislation will bring to the communities throughout the Wind River 
Reservation. The water is tied to the land in these communities and 
delivery of this water in an efficient manner is the key to the success 
of the operations in the area. Wateruser groups like those in Crowheart 
are critical to improving operations because those involved have a 
financial interest in their success. Thank you for your efforts on this 
legislation, and we look forward to working with the Committee in the 
future.

                                  [all]
</pre></body></html>
